<html>
<title> - ``LEGISLATIVE HEARING ON H.R. 456; H.R. 473; H.R. 474; H.R. 475; H.R. 476; H.R. 643; H.R. 1038; H.R. 1141; H.R. 1187; H.R. 1313; H.R. 1382''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
 ``LEGISLATIVE HEARING ON H.R. 456; H.R. 473; H.R. 474; H.R. 475; H.R. 
 476; H.R. 643; H.R. 1038; H.R. 1141; H.R. 1187; H.R. 1313; H.R. 1382''

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, MARCH 24, 2015

                               __________

                           Serial No. 114-12

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 98-629 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
                  
         
         
         
         

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA COLEMAN RADEWAGEN, American        Member
    Samoa                            DINA TITUS, Nevada
RYAN COSTELLO, Pennsylvania          KATHLEEN RICE, New York
MIKE BOST, Illinois                  JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              

                        Tuesday, March 24, 2015

                                                                   Page

.................................................................
``Legislative Hearing On H.R. 456; H.R. 473; H.R. 474; H.R. 475; 
  H.R. 476; H.R. 643; H.R. 1038; H.R. 1141; H.R. 1187; H.R. 1313; 
  H.R. 1382''                                                         1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     3
    Prepared Statement...........................................    31
Jeff Miller, Chairman of the Full Committee......................    10

                               WITNESSES

Hon. Patrick Murphy (FL-18)......................................     6
Mr. Aleks Morosky, Deputy Director National Legislative Service, 
  Veterans of Foreign Wars of the United States..................     8
    Prepared Statement...........................................    33
Mr. Christopher Neiweem, Legislative Associate, Iraq and 
  Afghanistan Veterans of America................................    13
    Prepared Statement...........................................    41
Mr. Steve Gonzalez, Assistant Director, National Veteran 
  Employment ` Education Division, The American Legion...........    15
    Prepared Statement...........................................    46
Dr. Joseph W. Wescott, President, National Association of State 
  Approving Agencies.............................................    16
    Prepared Statement...........................................    57

    Accompanied by:

        Timothy Freeman, Legislative Director, NASAA
MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  VBA, U.S. Department of Veterans Affairs.......................    24
    Prepared Statement...........................................    61

    Accompanied by:
        Mr. Tom Leney, Executive Director, Small and Veterans 
            Business Programs, U.S. Department of Veterans 
            Affairs

        Ms. Kimberly McLeod, Deputy Assistant General Counsel, 
            U.S. Department of Veterans Affairs

    And

        Mr. John Brizzi, Deputy Assistant General Counsel, U.S. 
            Department of Veterans Affairs

Ms. Teresa W. Gerton, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......    26
    Prepared Statement...........................................    99

                        STATEMENT FOR THE RECORD

U.S. Department of Defense.......................................   105
School Advocates for Veterans' Education and Success.............   105
Paralyzed Veterans of America....................................   108
Easter Seals, Inc................................................   110
National Association of Veterans' Program Administrators.........   112


 ``LEGISLATIVE HEARING ON H.R. 456; H.R. 473; H.R. 474; H.R. 475; H.R. 
 476; H.R. 643; H.R. 1038; H.R. 1141; H.R. 1187; H.R. 1313; H.R. 1382''

                              ----------                              


                        Tuesday, March 24, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Zeldin, Costello, 
Radewagen, Bost, Miller, Bilirakis, Takano, Titus, Rice, and 
McNerney.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Good afternoon, everyone.
    The Subcommittee will come to order. Before we begin, I 
would like to ask unanimous consent that our colleagues, 
Chairman Miller and Mr. Bilirakis, be allowed to sit at the 
dais to make opening statements and ask questions.
    Hearing no objection, so ordered.
    I want to thank you all for joining us here today to 
discuss legislation pending before the subcommittee concerning 
education benefits and employment programs for our return 
servicemembers and veterans. This afternoon we have 11 
important pieces of legislation before us. I will focus my 
remarks on three of these bills which I introduced earlier this 
year.
    The first is H.R. 474, the Homeless Veterans' Reintegration 
Programs Reauthorization Act of 2015. The Homeless Veterans' 
Reintegration Program, HVRP, provides grants to programs with 
employment and training services for homeless veterans. H.R. 
474 would reauthorize HVRP until 2020 and would ensure that 
veterans who are homeless and participating in the HUD VASH 
voucher program, as well as veterans who are transitioning from 
incarceration are also eligible for services provided by HVRP.
    My second bill, H.R. 475, the G.I. Bill Processing 
Improvement Act of 2015 would make several changes to improve 
processing of G.I. Bill claims. The centerpiece of this 
legislation is to authorize additional funding for new IT 
projects to ensure that all original education claims are 
processed electronically. This is an issue the subcommittee has 
been tracking for several years, and as I said at our hearing 
last week, it is imperative that VA finish the job and complete 
the long-term solution. This bill also has a provision that 
would extend by a year, the July 1st deadline, for schools to 
comply with the in-state tuition provision in the Choice Act.
    VA, state legislatures and the SAA seem to be making good 
progress as we approach this deadline in the coming months, but 
I am interested to hear from our witnesses today as to whether 
they believe this extension is needed. If it is not needed, I 
would intend to remove this provision from the bill at our 
subcommittee markup.
    My final bill is H.R. 476, the G.I. Bill Quality 
Enhancement Act of 2015, which makes several changes to the 
role of the state approving agencies and how schools are 
approved for G.I. Bill benefits. This bill was based on 
legislative changes proposed by the National Association of 
State Approving Agencies, and I want to thank Dr. Wescott and 
General Worley for working together to bring this proposal 
forward. The main focus of this bill would be to increase 
oversight of G.I. Bill programs and strengthen the role of the 
SAA for decades to come.
    I understand that there have been concerns raised by some 
related to the flight school provision in the bill that I would 
like to address. While I believe that flight training is a 
noble and worthwhile education, it was never the intention of 
the Post-9/11 G.I. Bill to allow some schools to charge in some 
cases, almost $900,000 in tuition and fees for one veteran. By 
capping tuition and fees for public flight schools at the same 
cap as other private, nonprofit schools, we would be leveling 
the playing field for all student veterans.
    I would also like to address the concerns that have been 
raised regarding Section 3 of the bill relating to the States' 
ability to set their own standards and criteria for G.I. Bill 
approval. While I don't have any problem with States setting 
their own reasonable criteria for approval of an educational 
program, an authority granted to the States currently under 
federal law, they should and must do so in a fair and equitable 
way across all schools. Ensuring a fair and level playing field 
for all schools, regardless of the type of school, is what this 
section is striving to accomplish, nothing more.
    Some may say that we are trying to protect bad schools and 
undermining States' rights, and I would remind everyone this is 
a federal benefit, not a state benefit, and if the SAA in that 
state or the VA believes that a school is not providing their 
student veterans with a quality education at a good value, then 
they should withdraw that school's approval immediately. But to 
impart one set of standards on one group of schools while 
excluding another group of schools with a similar student 
population, as well as similar student outcomes is not fair. It 
is not good government, and is simply not right.
    With that being said, I am eager to discuss each of the 11 
pieces of legislation before us today, and I am grateful to my 
colleagues who have introduced these bills and to our witnesses 
for being here to discuss them with us and I look forward to a 
productive and meaningful discussion.
    I will now yield to my colleague, Ranking Member Takano, 
for any opening statement that he may have.
    Mr. Takano. Thank you, Mr. Chairman.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Today, we are examining 11 bills, five of which directly 
relate to veterans education benefits. As a former educator, I 
enjoy my time on this committee precisely because we all share 
an interest as to how education helps veterans successfully 
transition into civilian life. I believe that the majority of 
these bills move us towards this subcommittee's purpose, 
increasing economic opportunity for our nation's veterans.
    The G.I. Bill Fairness Act, which I introduced, would close 
a gap faced by our National Guardsmen and Reservists who have 
been called and then recalled to war throughout operations in 
Iraq and Afghanistan. I was shocked when I first heard that 
brave men and women with combat injuries, who are receiving 
medical treatment on active duty military orders, are not 
allowed to count their recovery time towards earning education 
benefits. This is a no-brainer, a cost of war, let's do the 
right thing by these injured servicemen, servicemembers, and 
give them the benefits they need and deserve. I am happy to 
hear the Department of Defense agrees this is the right thing 
to do.
    I also want to recognize several of my colleagues' bills. 
Ms. Rice has introduced her first bill as a representative, the 
BRAVE Act, which requires VA to consider the number of veteran 
employees a contractor has before giving them new work with the 
VA. I am confident her legislation will result in the number of 
jobs available to veterans and I applaud her efforts in getting 
right to work for veterans on Capitol Hill--I am speaking about 
you, Ms. Rice, as you are walking in. Mr. McNerney's bill, the 
Service Disabled Veteran Owned Small Business Relief Act, also 
allows surviving spouses to retain their deceased spouses 
preferred status of their businesses for three years. And Mr. 
Murphy's bill, the Reducing Barriers for Veterans Education 
Act, will help veterans pay for their college application fees. 
I strongly support all of these pieces of legislation.
    I generally agree with the legislation being offered for 
scrutiny today, but there is one provision in H.R. 476, the 
G.I. Bill Education Quality Enhancement Act that infringes on 
States' rights to govern their educational institutions. I fear 
that this provision will have serious negative impacts on our 
veterans. Director Worley and I agree that States should retain 
the right to implement additional standards for schools that 
educate and train our veterans as they see fit, as is the case 
under current law. In fact, I believe it was through these 
additional standards that the California Department of Veterans 
Affairs was able to suspend and ultimately withdraw approval 
for Corinthian Colleges, Inc., a company that was shut down 
after the Department of Education found widespread abusive and 
deceptive practices. I am concerned that the provision in H.R. 
476 would hinder our States' ability to protect veterans from 
predatory schools, particularly those that take veterans' money 
for the benefit of their shareholders and leave our heroes with 
unsustainable debt and worthless degrees.
    Mr. Chairman, this bill is otherwise important for veterans 
and taxpayers, but on behalf of California veterans, I ask you 
to reconsider this provision.
    I yield back, Mr. Chairman. I look forward to a good 
hearing.

    [The prepared statement of Ranking Member Mark Takano 
appears in the Appendix]

    Dr. Wenstrup. Thank you, Mr. Takano.
    Next we have Mr. Zeldin to discuss his bill, H.R. 1187. You 
are now recognized for five minutes.
    Mr. Zeldin. Thank you, Mr. Chairman.
    It is great to--I appreciate you bringing this bill up for 
the Committee's consideration. In some parts of the country, 
the real estate markets are a little bit higher than others. I 
represent New York's 1st Congressional District on the east end 
of Long Island. And what we are experiencing is that over the 
course of the last several years, due to a change made as part 
of the 2009 Stimulus Package, thousands of veterans were able 
to qualify for VA home loans due to a change that then expired 
at the end of 2014. This bill would eliminate the loan limit or 
the maximum guarantee amount of a loan that the VA can 
guarantee for a veteran.
    There are several places around the country where a veteran 
is not able to use their VA home guarantee benefits because of 
the lower maximum guaranty amount that went into place January 
1st of 2015, when the old higher loan limits statutorily 
expired.
    Thank you for bringing this bill to the Committee for 
consideration.
    Dr. Wenstrup. Thank you, Mr. Zeldin.
    Next, we have Ms. Rice to discuss her bill, H.R. 1382, and 
you are now recognized for five minutes.
    Ms. Rice. Thank you, Mr. Chairman, and thank you, Ranking 
Member Takano, for holding this hearing.
    I am grateful for the opportunity to serve on this 
subcommittee, and I look forward to working together to solve 
problems for all of our veterans and ensure they have the 
opportunities they need to succeed in civilian life.
    And one of the bills we will discuss today is H.R. 1382, 
otherwise known as the BRAVE Act, the Boosting Rates of 
American Veteran Employment Act, which I introduced last week. 
This bill would authorize the VA secretary, when awarding 
contracts, to give preference to companies with high 
concentrations of veteran employees, reward companies that 
actively employee veterans, and creating an incentive for other 
companies to do so the same.
    I want to thank my lead co-sponsor, Congressman Paul Cook 
from California, for his support. I also want to thank our 
original co-sponsors, Ranking Member Takano and Congresswoman 
Radewagen, as well as our colleagues on the full committee, 
Congressman Abraham and Congresswoman Kuster. It is very 
important to me that the first bill I have introduced in the 
House have balanced bipartisan support, and it is even more 
important to our veterans that we work together in a bipartisan 
way to solve problems for the men and women who have served our 
country.
    And one of the biggest problems facing our veterans right 
now, especially those who served in Iraq and Afghanistan, is 
finding good jobs in civilian life. We have seen progress in 
event years, but the unemployment rate among post-9/11 veterans 
is still higher than the national average and that is 
completely unacceptable. Our veterans have received the best 
training in the world. They have unique skills and experience 
that can't be acquired, anywhere but in the United States 
military. They have what it takes to excel in civilian 
workforce and they don't need charity. They don't need a 
handout; they just need the opportunity.
    The BRAVE Act will reward companies that provide that 
opportunity. It gives them an advantage in securing federal 
contacts and that creates an incentive for other contractors to 
step up and do the same, to make it a priority, to actively 
invest in our veterans. And I have no doubt that as contractors 
hire more veterans, they will realize that that is a smart 
investment. That is really what all of this is about. We don't 
just want to hire veterans because it is the right thing to do, 
we want them to realize it is a smart investment. We want them 
to recognize that it is in their own self-interest to actively 
hire men and women who are highly trained, highly skilled, and 
know how to get the job done, whatever the job is. That is the 
goal. That is how we will solve this problem and ensure that 
every single man and woman who served our country can find a 
good job and succeed in civilian life. And passing the BRAVE 
Act will help us get there.
    I want to thank the witnesses who have taken the time today 
to join us today. I look forward to hearing your testimony and 
I am eager to work with you to advance this legislation and to 
help advance our veterans' careers and education in any way 
that we can.
    Thank you very much, Mr. Chairman.
    Dr. Wenstrup. Thank you, Ms. Rice.
    Next we have Mr. Costello to discuss H.R. 1038. You are now 
recognized for five minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Chairman Wenstrup, Ranking Member Takano, it is my pleasure 
to testify on behalf of my legislation, H.R. 1038, the Ensuring 
VA Employee Accountability Act. This is a commonsense effort to 
ensure greater employee accountability within the Department of 
Veterans Affairs and I respectfully request my colleagues here 
today support the passage of this legislation.
    We all agree that our veterans deserve the best service and 
care possible and it is our responsibility to ensure that care 
is being provided by the employees responsible. The VA's 
disciplinary actions for their personnel are carried out in a 
tiered system and the two most commonly used are the lower-
tiered actions, admonishments and reprimands. As the VA 
continues to review the findings of the recent Inspector 
General's investigation related to data manipulation, backlogs, 
and wait times, it is apparent in the limited reports the VA 
provides to Congress on adverse actions that a greater number 
of admonishments and reprimands are being issued to at-fault 
employees.
    However, in the current policy, these disciplinary actions 
remain in an employee's file for only three years and are then 
deleted. This policy prevents the keeping of complete employee 
files and does not allow the poor performers within the VA to 
be tracked or be held accountable. Veterans expect that if an 
employee's actions warrant a removal, then the correct 
disciplinary action should be administered, not simply getting 
a temporary written warning; therefore, as the VA continues to 
issue these lower-tiered disciplinary actions more heavily than 
others, it is important that the personnel actions remain in 
the employee's record while employed at the VA. It is only 
right to ensure that if a VA employee has illustrated a pattern 
of disciplinary misbehavior, that a full and complete employee 
file be considered when an employee is reviewed for bonuses, 
promotions or advancements.
    This will do just that. It will require all reprimands and 
admonishments remain in the VA employee's file as long as they 
are employed at the VA. That being said, nothing in this bill 
imposes new employee penalties or would affect the existing 
process for a VA employee to appeal a disciplinary action. This 
is simply another tool for the secretary to hold employees 
accountable throughout their tenure at the VA. It will ensure 
that the VA maintains good complete employee records and holds 
those who care for our veterans accountable. It will also 
ensure our veterans receive the care they deserve and have 
earned.
    I would respectfully call on my colleagues to join me in 
supporting this legislation to promote transparency and 
accountability where it is greatly needed.
    Thank you, I yield back.
    Dr. Wenstrup. Thank you, Mr. Costello.
    Next, we have Mr. McNerney to discuss his bill, H.R. 1313. 
You are now recognized for five minutes.
    Mr. McNerney. I want to thank the Chairman.
    Just imagine the scenario, you are a spouse of a service 
connected disabled business owner and you are doing well, you 
are supporting your family, you are supporting a couple other 
employees and all of a sudden your spouse dies in a car 
accident or something that is not related to a service 
disability, all of a sudden you lose your status; you are 
laying off your employees; you are seeing your kids go without 
decent meals, without clothes. I mean that is not acceptable.
    What my bill does is it extends that disability rating for 
three years which gives the spouse enough time to establish the 
business without the rating. So that is what my bill does. I 
urge my colleagues to support it, and I yield back.
    Dr. Wenstrup. Well, thank you, Mr. McNerney.
    Mr. Murphy, you are now recognized.

                STATEMENT OF HON. PATRICK MURPHY

    Mr. Murphy. Thank you, Mr. Chairman, Mr. Ranking Member, 
Members of the Committee, for having me here. It is nice to be 
on this side of things; it is a different view.
    It is an honor to be here to discuss this important piece 
of legislation that I introduced with my colleague, Mr. Luke 
Messer. One of the greatest honors of my time here in Congress 
was visiting our brave men and women in Afghanistan serving our 
country. I had the opportunity to see firsthand the 
extraordinary work they are doing for this country day in and 
day out. These men and women are putting their lives on the 
line for us.
    Our grateful nation works to expand opportunities when they 
return home. To that end, the Post-9/11 G.I. Bill changed the 
lives of veterans across this country; however, veterans in my 
district in Florida still tell me they face significant 
challenges when they return home. One key obstacle to applying 
to undergraduate, graduate and vocational colleges, while 
tuition and fees are covered under the Post-9/11 G.I. Bill, the 
application fees are not. According to the National Association 
for College Admission Counseling, average fees for an 
undergraduate institution are around $40. Graduate school 
applications can be as high as $275. For a veteran returning 
home after months or years of active duty service, covering 
those costs can be extremely difficult.
    Based on the incredible bipartisan work on this committee 
here and its dedicated membership, I know you all share my 
belief that we should look for opportunities to make the lives 
of our heroes easier, not more complicated. And for this 
reason, I have introduced the Reducing Barriers for Veterans 
Education Act to address the issue of college application fees. 
This legislation would make college application costs eligible 
for payment under the Post-9/11 G.I., bill giving our veterans 
the option to use up to $750 of their Post-9/11 G.I. benefits 
to cover application costs.
    This would open the doors for veterans in Florida and 
across the country who are unable to cover these costs on their 
own. When we talk about cutting spending and balancing the 
budget, it is to protect key investments. The American people 
entrust us with their hard-earned tax dollars with the hope 
that we will give it a good return. That return on investment 
that we get for facilitating access to college and graduate 
school for our brave men and women couldn't be greater.
    Even still, the costs of these application fees would be 
offset, counting against the existing Post-9/11 G.I. benefits. 
This isn't about creating a new entitlement; this is about 
tearing down unnecessary barriers that stand between those 
willing to give it all for their country and then go on to get 
an education. This bipartisan legislation has the support of 
over 100 members of Congress and veteran service organizations 
including The American Legion, Student Veterans of America, and 
the Military Officers Association of America.
    This is legislation that should be signed into law. It is 
the right thing to do and more than anything, it is something 
that will make a real impact on veterans in every congressional 
district. Again, I appreciate the opportunity to discuss this 
legislation with you today and I look forward to continuing to 
support your good work and improving the lives of veterans. 
Thank you.
    Dr. Wenstrup. Well, thank you, Mr. Murphy.
    Unless there are any questions for our colleague, you are 
excused.
    Dr. Wenstrup. I now invite our second panel to the table. 
First we have Mr. Aleks Morosky, deputy director of the 
national legislative service at the Veterans of Foreign Wars of 
the United States; Mr. Christopher Neiweem, legislative 
associate at the Iraq and Afghanistan Veterans of America; Mr. 
Steve Gonzalez, assistant director of the national veteran 
employment & education division at The American Legion; and 
also Dr. Joseph Wescott, president of the National Association 
of State Approving Agencies. I thank you all for being here, 
for your service to our nation in uniform, and for your hard 
work and advocacy for veterans.
    Mr. Morosky, we will begin with you. You are now recognized 
for five minutes.

                 STATEMENT OF MR. ALEKS MOROSKY

    Mr. Morosky. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and our 
auxiliaries, I would like to thank you for the opportunity to 
testify on today's pending legislation.
    The VFW supports the Reducing Barriers for Veterans 
Education Act. Believing that veterans should not face any 
unnecessary barriers when accessing their benefits and that 
allowing them to use a small portion of their entitlement to 
defray college application costs is fully consistent with the 
intent of the Post-9/11 G.I. Bill.
    The VFW supports the Increasing the Department of Veterans 
Affairs Accountability to Veterans Act. No employee should be 
able to commit a serious crime and then opt to retire without 
consequence. We believe VA needs the authority to take quick 
and decisive action against all senior managers who perpetuate 
wrongdoing, while ensuring that all SES employees have proper 
training and performance evaluation systems in place so that 
they will be the leaders the VA needs them to be.
    The VFW fully supports the Homeless Veterans' Reintegration 
Program Reauthorization Act. VA has taken great strides in 
achieving the goal of ending veterans' homelessness, but before 
it can be realized, VA homelessness programs must continue.
    The VFW supports all provisions of the G.I. Bill Processing 
Improvement Act, except Section 3, which would delay the 
implementation of in-state tuition protections for one year. At 
this point, we are confident that most states should be able to 
meet the July 1st, 2015 deadline. We also note that VA has the 
authority to grant waivers to individual states with legitimate 
reasons for needing more time. Considering these factors, we 
now believe that the original implementation date should remain 
in effect in order to encourage all states to continue to make 
progress towards full implementation as quickly as possible.
    The VFW supports the G.I. Bill Education Quality 
Enhancement Act which would make important reforms to the way 
state approving agencies and VA approve courses of education. 
These reforms include codifying the authority of SAAs to 
inspect and approve non-college degree programs at not-for-
profit schools; the requirement to apply uniform criteria when 
approving all categories of educational programs; placing 
reasonable caps on the amount of tuition and fees that may be 
paid for flight training; and adjusting the way compliance 
surveys are conducted. These are consistent with VFW 
recommendations from previous hearings, and we thank Chairman 
Wenstrup for introducing this bill.
    The VFW supports the Veterans Education Survey Act to 
commission a survey of student veterans currently using their 
earned G.I. Bill benefits. Student veterans, particularly those 
who enroll in non-traditional programs, usually start their 
studies on a part-time basis while serving in the military or 
they bring a significant number of transfer credits into their 
programs after completing military service, meaning they are 
never considered first-time, full-time students, and thus, are 
never tracked by the Department of Education. Without 
statistically valid information on student veteran experience 
or student veteran outcomes, it is impossible to know how 
student veterans are actually faring in higher education.
    The VFW fully supports the Ensuring VA Employee 
Accountability Act. Currently an employee who is reprimanded 
and is granted a transfer will start their new position with a 
clean slate. This allows the bad mark to go unrecognized on 
their next evaluation, which inhibits accountability and 
passively condones poor performance. Employees must be held 
accountable for their actions and this legislation goes a long 
way towards achieving that goal.
    The VFW supports the G.I. Bill Fairness Act which would 
require VA to consider time spent by members of the Reserve 
component receiving medical care for service-connected injuries 
for the purposes of determining eligibility for the Post-9/11 
G.I. Bill. We believe the time it takes to recuperate from 
service-connected injuries is still time in service to this 
country and that Reservists and Guardsmen should be recognized 
for their sacrifice.
    Furthermore, we urge Congress to address another inequity 
that we have identified in Post-9/11 G.I. Bill eligibility 
determination. The VFW believes that any member of the Armed 
Forces who is wounded in action should be deemed 100 percent 
eligible, regardless of how long they served on active duty.
    The VFW supports H.R. 1187, believing that veterans should 
not be limited by arbitrary caps when selecting a location to 
purchase a home. Since the rate of default on VA-backed loans 
is significantly lower than that of the national average, 
approving mortgages for higher amounts will not adversely 
affect veterans or financial institutions, but will help 
veterans secure home loans in all geographic areas.
    The VFW also supports the Service Disabled Veteran Owned 
Small Business Relief Act. Current law only allows the 
surviving spouse to temporarily continue operating a service 
disabled veteran owned business if the veteran was 100 percent 
disabled or died from service-connected disability. This is a 
necessary protection that allows for a transition period for 
the bereaved spouse to restructure the business as necessary. 
The VFW believes that this protection should be extended to all 
surviving spouses under the SDVOSB program.
    Finally, the VFW supports the BRAVE Act, which would allow 
VA to give preference to prospective contractors based on the 
percentage of veterans their companies employ. Such a policy 
would potentially incentivize companies to hire more veterans. 
The VFW believes that such incentives are still necessary in 
light of the fact that the unemployment rate for current era 
veterans continues to outpace that of the nation at large.
    Chairman Wenstrup, Ranking Member Takano, thank you, and I 
look forward to any questions you or any other members of the 
subcommittee may have.

    [The prepared statement of Mr. Aleks Morosky appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Morosky.
    If I may indulge the panel for just a few moments here, at 
this time, I would like to yield to Chairman Miller of the full 
committee to discuss his bill, H.R. 473.
    Chairman Miller, you are now recognized.

    OPENING STATEMENT OF FULL COMMITTEE CHAIRMAN JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman.
    I apologize for being late. I was in an intelligence 
hearing on the defense intelligence budget and was asking some 
questions that you and I both are very interested in. Thank you 
for yielding to me for just a moment. I want to thank you and 
the ranking member for allowing me an opportunity to speak on 
behalf of my bill, H.R. 473, Increasing the Department of 
Veterans Affairs Accountability to Veterans Act of 2015.
    First, let me start by recognizing the tens of thousands of 
people that work at the Department of Veterans Affairs that are 
dedicated, that go to work every day that do what they do for 
the right reason, both senior managers and rank and file 
personnel. But the past year has been very tumultuous for VA 
and I know that a lot of distrust has arisen between the 
American public and the Department, and I want to emphasize 
that H.R. 473 is in no way intended to disparage the hard-
working employees, as I said, that go to work every day to do 
the right thing. In fact, my bill is meant to help them, as 
well as the Department as a whole, by assisting the secretary 
in his effort to turn around the VA, to turn a new page at the 
Department, if you will.
    Last Congress, we were successful in passing into law a 
tool the secretary needed to weed out the bad managers within 
the Department and hold senior executives accountable when 
warranted, and I think we can all agree that this tool was a 
very important and necessary one, but it is not the only means 
to enhance accountability at the Department. True 
accountability and a change in culture cannot happen over night 
and cannot happen with just one piece of legislation, which is 
why I introduced H.R. 473, to bring additional reform to VA. 
Without a continued change in culture, the Department will not 
become the agency that our veterans deserve.
    My bill would do several things, but I am going to touch on 
just a few important aspects of the bill at this time. First, 
it would allow the secretary to reduce an SES employee's 
retirement only upon their conviction of a felony that 
influenced their performance at work. I believe that this is a 
common sense measure, as it should not require an act of 
treason or an act of terrorism before an employee's retirement 
can be reduced, as the current law currently states.
    H.R. 473 would also make changes to the performance review 
system for SES employees and would require the secretary to 
rate the senior executives in a tiered system, as opposed to 
just placing everyone in the top two categories. Not a single 
senior executive was placed in a category lower than fully 
successful for the past couple of years, and I think that we 
can all agree that after the scandal that arose last summer, 
that is not an accurate depiction of the performance of all 
senior managers within the Department.
    And, Members, my bill would also reinforce the foundations 
of the original intent of the Senior Executive Service by 
requiring senior executives to move every five years to a new 
position. This is to ensure that best practices are spread 
throughout the agency and the country and to improve leadership 
across all facilities.
    Finally, my bill would limit the amount of time that a 
senior executive employee may be placed on paid administrative 
leave to 14 days. It is ridiculous that VA is paying employees 
to sit at home for almost a year in some cases at the 
taxpayers' expense; that should not be the common practice for 
VA, but, unfortunately, we have seen it in far too many cases. 
It is easier to send someone home indefinitely and continue 
paying them instead of making a personnel decision.
    The secretary has the authority to make great strides to 
improve accountability following the biggest scandal in the 
Department's history, but more needs to be done. We must 
continue to work together to change the culture at VA. It is 
what both veterans and the American taxpayers deserve. And I 
know many are concerned that continuing to impose personnel 
measures on VA employees that are not applicable to the rest of 
the federal government will only disincentivize good workers 
from coming to the Department, but I think the opposite is 
true. Good workers want to work in good agencies with other 
hard-working employees and want to know that bad actors will be 
held fully accountable.
    I believe that giving the secretary these further tools 
will only enhance the culture at VA and ultimately improve the 
care provided to our country's veterans. At the end of the day, 
that is the job of this committee; our primary mission is to 
support our veterans. Everything else should take second place.
    I would ask my colleagues to support this bill, and I thank 
you, Mr. Chairman, and Mr. Takano, the Ranking Member, for 
including my legislation into today's agenda, and I yield back.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Next, Mr. Bilirakis, you are recognized for five minutes to 
discuss your bill.
    Mr. Bilirakis. I appreciate it. Thank you very much, Mr. 
Chairman, for holding this hearing and, obviously, hearing my 
bill, H.R. 643, the Veterans Education Survey Act of 2015.
    The challenges our nation's heroes face do not end on the 
battlefield, but continue as they make their transition to 
civilian life. America has always been the land of opportunity 
and it is our responsibility that our veterans are equipped 
with the necessary resources to pursue that happiness. The 
brave men and women of our U.S. Armed Forces have answered the 
call to protect the liberties that we enjoy on a daily basis. 
Likewise, we must answer the call for veterans.
    Through the G.I. Bill, veterans can utilize these benefits 
to work towards college degrees and certificates, 
correspondence courses, apprenticeships, on-the-job training 
programs, and vocational flight training programs. 
Additionally, these programs provide assistance in covering 
costs from a myriad of education-related expenditures. These 
education and training programs have been credited with 
successfully transitioning and readjusting returning 
servicemembers for generations; however, we must strive to do 
more and find ways to improve this important program.
    Since the enactment of the Post-9/11 Veterans Education 
Assistance Act of 2008, over one million of our nation's 
veterans have participated in this program. By fiscal year 
2011, the Post-9/11 GI Bill had the largest number of 
participants and highest total obligations when compared to 
previous versions of the GI Bill since 1984. The VA provided 
nearly $10 billion for that fiscal year in education benefits 
for veterans and beneficiaries, with the majority of these 
benefits applied to the Post-9/11 GI Bill program.
    An obstacle we continue to encounter when discussing the GI 
Bill is a lack of data available regarding its participants. It 
is critical to understand how these programs affect veterans, 
so that we may continue to provide the best assistance we can.
    Recently, the economic opportunities subcommittee held a 
hearing titled, ``A Review of Higher Education Opportunities 
for the Newest Generation of Veterans.'' In this hearing, 
various veterans service organizations and witnesses 
highlighted the value in presenting such benefits to our 
transitioning service members.
    For example, the School Advocates for Veterans Education 
and Success, so it is called SAVES, they stated, ``In our eyes 
the most important question is, how do we know how well 
veterans are doing on our campus?'' To answer those questions, 
we must measure the strengths and weaknesses, the successes and 
failures of our programs, both quantitatively and 
qualitatively. In order to give the best opportunities to our 
veterans, we must be prepared to address new needs as they are 
identified, and continue to find ways to improve both the 
effectiveness and delivery of these resources.
    Veterans service organizations seeing this firsthand have 
stressed to Congress the necessity of collecting comprehensive 
data. The American Legion stated before Congress that current 
outcomes are based on incomplete data and recommended 
redefining VA's data points in measuring success indicators 
across the population.
    To ensure that our nation's veterans' progression into 
civilian life is a top priority, I have introduced the Veterans 
Education Surveys Act of 2015. My bill, H.R. 643, would create 
a pathway to continued success by surveying veterans using 
their education-assistance benefits.
    The survey would be an extensive study conducted by a 
third-party non-government entity using a statistically valid 
sample of individuals utilizing the educational programs. The 
information would encompass all possible factors that could 
contribute to the effectiveness of these programs. This survey 
would prove beneficial to VA and Congress by providing a better 
understanding of what improvements will be most impactful to 
the success of these individuals using the education-assistance 
programs.
    I want to thank our witnesses today for being here, as well 
as those that provided testimonies for the record. I want to 
especially thank the American Legion, the VFW, the School 
Advocates for Veterans' Education and Success, the Iraq and 
Afghanistan Veterans of America, and the Paralyzed Veterans of 
America for their support of the Veterans Education Survey Act.
    I encourage my colleagues on this committee to support this 
bipartisan piece of legislation. Please co-sponsor the 
legislation as well. We can all agree that those who dedicated 
their lives to serving our country should have the resources 
they need to successfully transition into civilian life. Let us 
honor that commitment and get this done for our veterans, our 
heroes.
    Thank you again, Mr. Chairman. And I yield back.
    Dr. Wenstrup. Thank you, Mr. Bilirakis.
    Mr. Neiweem, you are now recognized for five minutes.

                STATEMENT OF CHRISTOPHER NEIWEEM

    Mr. Neiweem. Thank you, Mr. Chairman.
    Chairman Wenstrup, Ranking Member Takano, and distinguished 
members of the subcommittee, on behalf of Iraq and Afghanistan 
Veterans of America and our nearly 400,000 members and 
supporters, we would like to extend our gratitude for the 
opportunity to share with you our views and recommendations 
regarding these important pieces of legislation. Specifically, 
the following bills.
    H.R. 475. This bill would provide the needed funding and 
support to keep VA's administration of education programs to a 
standard veterans will require over the next decade. Last week, 
I appeared before this committee with survey data collected by 
IAVA members that showed late payments continue to occur with 
respect to the Post-9/11 GI Bill program. This legislation is 
necessary to continue to improve and modernize the services 
that VA is currently providing and will move toward preventing 
these problems from occurring in the future.
    Broadening electronic automation functionality and 
enhancing technological capabilities are the only way to make 
sure that the disbursement of education benefit checks keeps 
pace with current technological capabilities. The timeliness of 
benefit delivery to veterans over the next decade will greatly 
depend on efficient IT technology platforms.
    IAVA supports this bill and appreciates the resources it 
will provide to VA to better assist in getting education 
benefit payments right the first time.
    In regard to H.R. 474, this legislation will extend needed 
housing benefit programs for veterans for an additional five 
years. Additionally, this bill will make needed changes 
required to maintain support for veterans currently being 
served by HUD-VASH vouchers.
    Allowing veterans access to housing support and job 
training programs greatly increases his or her chances for 
success when transitioning to full-time work and a long-term 
residential option. IAVA supports this bill.
    In regard to H.R. 1141, this bill would consider time spent 
by reserve components healing from injuries in DOD facilities 
as good towards Post-9/11 GI Bill program eligibility. When 
reservists who are deployed overseas return stateside and their 
Title 10 orders expire, his or her time counted towards their 
eligibility for Post-9/11 benefits is not counted. This would 
fix this inequity. There is no reason that an injury should 
reduce accrual of education benefits and IAVA strongly supports 
the legislation.
    In regard to H.R. 476, the chief solution this legislation 
would provide is capping the payments that are currently being 
provided to some private flight schools at $20,235.02. In the 
last several months, it has come to our attention that some 
student veterans have taken flight training and have been 
charged excessive fees that have been paid under their GI Bill 
benefits. This measure provides a commonsense cost control for 
extremely high fees that upon examination are well above the 
costs intended for the instruction received.
    In learning more about some of these scenarios and in 
working with the committee, we agree Section 4 is necessary to 
protect VA education benefits from abuse. IAVA strongly 
supports this legislation.
    H.R. 643. This legislation would require a non-government 
entity to conduct a survey of veterans' views and experiences 
utilizing their education benefits. The information that the 
survey intends to capture is broad and would go a long way to 
identifying how support programs are working from the view of 
the customers that matter most, the veterans.
    Additionally, these surveys would solicit views on TAP 
participation and potential barriers or obstacles that prevent 
veterans from making use of their benefits for those that have 
not participated in VA education benefit programs. The focus on 
each person's individual experience is the best way to know how 
many nations' programs are or are not helping them in achieving 
their educational/employment objectives. And this survey would 
be more comprehensive and go further than current survey 
efforts that are underway currently at VA. IAVA strongly 
supports this legislation.
    In regard to H.R. 473, the accountability measure, Chairman 
Miller's bill is of great interest to IAVA and we are 
continuing to examine how its potential enactment could impact 
the department and our members, more importantly. There is no 
question of accountability failures at the Phoenix VA Medical 
Center last summer and that this committee and VSO/MSO 
stakeholders must aggressively promote policies that make 
certain those actions that included the maintenance of secret 
waiting lists for veterans who waited for care are never 
repeated.
    We support the intent of this bill and look forward to a 
closer examination of how federal policy across the U.S. 
Government compares with these recommendations for the 
Department of Veterans Affairs. Additionally, IAVA will engage 
with the VA to identify how its implementation would impact the 
employment culture and retention mission of the department.
    We strongly appreciate Chairman Miller's staunch commitment 
to making sure our veterans are receiving the best care our 
nation can deliver and we will continue to closely study and 
monitor this measure. As such, while we support many of the 
provisions of this bill, we require more time and study before 
issuing full support.
    Lastly, in closing, Mr. Chairman, H.R. 1187. This bill 
would adjust the VA Home Loan guarantee restrictions currently 
set at 25 percent of the loan and allow more flexibility in VA 
in determining its commitment. Providing VA this flexibility 
and removing the cap could be the difference between a veteran 
securing a loan to buy the home that they always envisioned.
    I am a little over time here, Mr. Chairman. I will close by 
saying IAVA supports these bills and I am happy to answer any 
questions you or the members of the committee have.

    [The prepared statement of Mr. Neiweem appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Neiweem.
    Mr. Gonzalez, you are now recognized for five minutes.

                  STATEMENT OF STEVE GONZALEZ

    Mr. Gonzalez. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, and distinguished members of the subcommittee.
    On behalf of our national commander, Mike Helm, and the 2.3 
million members of the American Legion, we thank you for this 
opportunity to testify regarding the American Legion's position 
on pending legislation before the subcommittee.
    In sum, we are generally supportive of the proposed 
legislation. Here I will highlight two where we differ 
somewhat.
    We support H.R. 475, the GI Bill Processing Improvement Act 
of 2015, sponsored by Chairman Wenstrup, except for Section 3. 
The American Legion was gratified that the Veterans' Choice Act 
contained among its provisions one which effectively requires 
public universities and colleges that participate in the Post-
9/11 GI Bill to provide in-state tuition to veterans and 
dependents using those GI Bill benefits. Many states either 
currently assist all or certain veterans by recognizing them as 
in-state students for purposes of attending a public education 
institution or are in the process of making the rule changes 
necessary to comply with the in-state tuition provision.
    In addition, VA has the authority to waive for a year those 
states which cannot meet the current July 1, 2015 
implementation date to allow them additional time to become 
compliant. Therefore, we don't see the necessity of delaying by 
a year to July 1, 2016 the implementation of this important 
change.
    Turning now to Chairman Miller's bill, H.R. 473, Increase 
in the Department of Veterans Affairs Accountability to 
Veterans Act. Reacting to the firing of Phoenix VA Healthcare 
System director in November of last year, the national 
commander of the American Legion, Mike Helm, noted, ``This is 
one long overdue step in a journey that is far from over.''
    Unfortunately, as we all soon discovered after the story 
broke last April, this problem was not isolated to Phoenix, it 
was widespread. And we expect to see additional consequences, 
even criminal charges, if they are warranted, for anyone who 
knowingly misled veterans and denied them access to medical 
services. The American Legion believes it is important to 
ensure there is accountability at all levels within VA and that 
the process is completely transparent.
    Where VA employees are found to have engaged in wrongdoing, 
the American Legion supports the appointment of a special 
prosecutor to be assigned to investigate and vigorously 
prosecute any VA employees engaged in fraudulent practices 
designed to improperly award bonuses or other financial or 
meritorious awards to the perpetrator.
    While those in the senior executive service can and should 
receive performance bonuses when their performance is 
exemplary, the American Legion believes any bonuses need to be 
tied clearly to quantitative and qualitative measures. There 
must be an open process for determining these awards that all 
state quotas can examine to determine the propriety of the 
awarded bonuses.
    This legislation, while it is helpful towards achieving 
these ends in some ways, has some sections which still raise 
concerns about the manner of their implementation. The American 
Legion supports increased accountability and those employees 
found guilty of having committed crimes at the expenses of 
veterans entrusted to their care should never profit from these 
crimes. To achieve bonuses based on manipulation and lies 
undercuts any trust with the veterans' community. Requiring 
additional transparency about SES performance outcomes is also 
laudable and supported by the American Legion.
    Where this legislation dives into creating a specific new 
performance appraisal system, the American Legion has concerns. 
While the goal of reforming the performance system is admirable 
and needed, their concerns at this level of specificity may 
lead towards over management of this task. While VA can and 
must reform this area, the American Legion is wary of dictating 
the shape of that reform into too many and too detailed a 
manner.
    The American Legion does support open discussion on this 
process and hopes this proposal can at least be a starting 
point for working with all parties from VA to Congress until 
the state quotas determine a system that enforces 
accountability and fairness in the bonus system.
    The American Legion recognizes the importance of reforming 
the bonus system and indeed the management culture within VA, 
and applauds the initial efforts by VA Secretary Bob McDonald 
to begin that process, as well as the diligence of this 
committee to direct oversight efforts towards that task.
    This legislation has great intentions and the portions 
related to adding transparency to the system and preventing 
from profiting at the cost of veterans are strong. With further 
work, perhaps more of the legislation could be supported and 
the American Legion looks forward to working with this 
committee to ensure impactful legislation is passed towards 
this end.
    In conclusion, I appreciate the opportunity to present the 
American Legion's views and look forward to any questions you 
may have.

    [The prepared statement of Steve Gonzalez appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Gonzalez.
    Dr. Wescott, you are now recognized for five minutes.

  STATEMENT OF DR. JOSEPH W. WESCOTT. ACCOMPANIED BY: TIMOTHY 
              FREEMAN, LEGISLATIVE DIRECTOR, NASAA

    Dr. Wescott. Chairman Wenstrup, Ranking Member Takano, and 
members of the Subcommittee on Economic Opportunity, I am 
pleased to appear before you today on behalf of the over 55 
member agencies of the National Association of State Approving 
Agencies and appreciate the opportunity to provide comments on 
bills pending before this committee.
    I am accompanied today by Timothy Freeman, who is the NASAA 
Legislative Director.
    NASAA supports the provisions of H.R. 475, Section 2, that 
would pay for changes and improvements made to VA information 
technology systems, so that all original and supplemental 
Chapter 33 claims are adjudicated electronically. Indeed, for 
the last two years we have worked side by side with our VA 
partners to redesign the compliant survey process, so that 
corrections to claims generated during those visits would be 
handled utilizing the VA automation system and not paper 
referrals.
    NASAA also supports the extension of the effective date of 
Section 702(b) as set forward in Section 3 of H.R. 475. But we 
are hopeful that the efforts of SAAs and other stakeholders in 
this endeavor will result in full compliance by all schools 
within the prescribed deadline. We do recognize the need to 
account for those situations in which an extension of waiver 
might be needed.
    I am pleased to report to the committee that state 
approving agencies through NASAA have taken a leading role in 
assisting their individual states in becoming compliant with 
Section 702. We have established a page in the member section 
of our national Web site to continuously and closely monitor 
the status of the adoption of Section 702 requirements within 
the individual states.
    Likewise, we have provided in our Web site language 
approved by VA legal counsel and/or the legislative language 
used to bring states within compliance. Though only seven 
states were compliant with the requirements of the law as of 
yesterday, states are working diligently to meet the 
requirements of the federal law. NASAA is committed to working 
with our VA partners to ensure that the waiver process which is 
established is equitable and timely, and we will not shrink 
from the responsibility or ignore the opportunity to help our 
states become compliant.
    NASAA strongly supports H.R. 476, which clarifies and 
codifies state approval authority and oversight over all non-
federal facilities by identifying SAAs as the primary entity 
responsible for approval, suspension and withdrawal. The bill 
does not do away with the idea of deemed approved degree 
programs at certain accredited institutions of higher 
education. Rather, it would maintain the intent of the statute 
by adhering to an expeditious list of approval criteria for 
those programs.
    In addition, this bill will expand 3675 to cover all 
accredited programs not already covered under 3672, while 
maintaining all previous approval criteria for private for-
profit institutions.
    H.R. 476 also provides measures to improve cost control for 
aviation degrees offered by colleges and universities. These 
programs frequently involve a contracted flight school which 
may or may not be approved by a state approving agency. This 
section would limit Chapter 33 payments for flight programs at 
public institutions to the prevailing cap, presently just over 
$20,200.
    Finally, the bill mandates appropriate changes to the 
manner in which we perform compliance surveys. These changes in 
the law allow for a manageable mission in which VA, with the 
assistance of SAA partners, can conduct compliance surveys on a 
regularly scheduled basis at the majority of approved 
institutions while allowing for continued waiver of those 
institutions with a demonstrated record of compliance. These 
changes would allow for flexibility to adjust resources towards 
specific high-risk educational institutions as needs arise, 
allowing both VA and SAAs to be proactive to risks identified 
through the new complaint system, and would allow SAAs to 
provide needed technical assistance and training visits to 
schools.
    Mr. Chairman, last year's SAAs increased the number of 
compliance visits we conducted by 17 percent over the previous 
year and we conducted more than 50 percent of the visits 
accomplished.
    Mr. Chairman, I pledge to you that we will not fail in our 
critical mission and in our commitment to safeguard the public 
trust, to protect the GI Bill and to defend the future of those 
who have nobly defended us.
    Thank you for this opportunity. I look forward to your 
questions.

    [The prepared statement of Joseph Wescott appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Dr. Wescott.
    I now recognize myself for five minutes for questioning, 
but I want to thank you all for your testimonies and again for 
being here today.
    I would like to go back to what a couple of you did 
discuss, which is the idea of a waiver for the in-state tuition 
requirements. And I know that many of you were concerned that 
the VA, and most state governments, they wouldn't be able to 
meet the July 1st, 2015 deadline for implementation of that 
provision of the Choice Act.
    And so if each of you would just comment, and for some 
again, comment on if you believe that there is a date that 
needs to be pushed back, or will a combination of a waiver and 
states coming into compliance be enough. And if we do proceed 
with a waiver of the in-state tuition requirement, what should 
the VA require from the state or school in order to receive a 
waiver?
    So, Mr. Morosky, I would like to start with you, if I 
could.
    Mr. Morosky. Mr. Chairman, we were initially a little 
concerned about this when the bill was originally introduced. 
It would have given two years when it was eventually signed as 
a part of the VACA. There were only 11 months.
    Since that time, we have met with the National Association 
of Governors. We have met with the National Association of 
State Legislatures. We feel like there is a lot of buy-in all 
the way around. State legislatures are wanting to make this 
happen and we feel like most, if not many, will be able to meet 
the deadline. So in order to keep the momentum going, rather 
than delay for another full year, just allow the waiver 
processes in place to take place and keep the momentum going, 
as I said.
    Thank you.
    Dr. Wenstrup. Mr. Neiweem.
    Mr. Neiweem. I would just agree with our colleague from the 
VFW. I think that one of our strategies has been to focus at 
the state level to get the state legislatures to expedite it, 
to look at it quickly and to keep the pressure on. In some of 
our recent communication with members, we are still doing some 
field work to get some information of members this would 
impact. But we echo our colleague that state legislatures 
should prioritize it and try to fix it now.
    Mr. Gonzalez. Mr. Chairman, having been working on this 
with a couple of my colleagues at VFW and SVA for the last two 
and a half years, and SAAs, many states have had intent and 
already have passed legislation, with the hopes of--but of 
course, when I say passed legislation, most of them have 
granted waivers already. The only hiccup was, I want to say is, 
when we actually advocated to have the Federal Government pass 
the actual legislation, dependents and children was included 
into that piece of legislation, which kind of was not in line 
with what we had asked the states initially to have passed. So 
when we went to states and we testified, and I think in roughly 
about 32 states that have passed some form of legislation, each 
state had passed what we as organizations had asked them to 
pass.
    So this particular hiccup has kind of thrown a monkey 
wrench, because in a lot of the states now we are back to 
square one where some of them are adding now dependents and 
children to meet the criteria of what the Federal Government is 
asking of them.
    So we would say and our suggestion to that is, the states 
that already have passed have shown more than enough intent for 
the betterment of the service members, especially those who are 
transitioning into their respective states and going into those 
institutions of higher learning, definitely making sure that 
those individual states are provided waivers. And then states 
who are in the process of course, again, showing intent where 
they have legislation, have good momentum going within their 
respective states, that the VA really consider providing them a 
waiver. And then of course the states who have no intent 
whatsoever, then that is more where the conversation needs to 
happen with between, I would say, members of Congress who are 
from those particular states, are part of the congressional 
delegation, should go back and begin to have conversations.
    Like our VFW colleagues here, we have presented along with 
the Department of Defense and Department of Veterans Affairs, 
to the National Conference of State Legislatures last year when 
they had their D.C. conference. So we have been very much 
engaged with them on multiple fronts to ensure that there is 
some compromise between all the stakeholders from the local, 
state and federal level.
    Dr. Wenstrup. Thank you, Mr. Gonzalez.
    Dr. Wescott.
    Dr. Wescott. Yes, Mr. Chairman. We certainly appreciate the 
option of the extension, but we are relatively certain that 
with a fair and equitable waiver process, that will be worked 
out with the VA, that we can have our states either compliant 
or with a waiver in hand by July 1 or, the requirement of the 
bill as it is. I know we only have, like I said, seven at the 
present time. But we are committed that regardless of whether a 
state gets a waiver or not, we will continue to push for those 
states to come into compliance.
    Dr. Wenstrup. Well, thank you all for your responses. I 
appreciate that.
    I now recognize the ranking member for any questions he may 
have.
    Mr. Takano. Thank you, Mr. Chairman.
    I will begin with Mr. Wescott. Mr. Wescott, you should know 
I have concerns about H.R. 476. Do you believe that the states 
should be able to have additional powers to regulate schools 
with the state authorizing agencies?
    Dr. Wescott. Certainly, Congressman Takano, I certainly do.
    I think that additional reasonable criteria, as I have said 
in my written testimony, is critical in allowing states to 
protect the veterans, and certainly I am a strong believer in 
state sovereignty. On the other hand, I do think we need to 
have awareness that we are administering a federal program. And 
it has always been our standard in NASAA that there would be 
one high standard for individuals that come to seek approval 
for their programs.
    Mr. Takano. So you don't see this legislation as usurping 
the authority of the states to be able to regulate? I mean, I 
am concerned that my state of California, the state approving 
agency was able to catch a bad actor, and I am concerned that 
this bill would weaken California and other states' ability to 
do that.
    Dr. Wescott. Well, our position is certainly we do not 
oppose this section. We are pleased that the requirement there 
is that the secretary will have to consult with the state 
approving agency before he would make a decision as to whether 
that provision would be fair and equitable.
    We also think that--we have always felt that there should 
be one standard as much as possible across all sectors of 
education in the state. We were never exactly wild about the 
deemed approved provisions, but we understood the reason for 
deeming approved accredited degree programs.
    So that would be our position on that provision.
    Mr. Takano. This is a question for any one of the panel who 
care to answer. Do you think it is important for the Guard and 
reservists to be able to accrue time toward their educational 
benefits while they are hospitalized due to war-related 
injuries?
    Mr. Morosky. Congressman, absolutely. When a service member 
gets deployed overseas and gets wounded, typically that should 
be considered active duty time. There is no reason why it 
shouldn't. The time spent in recovery should be considered 
additional service to the country and that should be the same 
absolutely between active duty and reserve component members.
    Mr. Neiweem. We strongly support the bill, Ranking Member. 
And for example in my case, being deployed as a reservist, it 
would have applied to me had I been injured or something. The 
time for the benefit that I accrued, I had 40 percent of the 
maximum payable benefit, could have possibly been less.
    So we strongly support the legislation and thank you for 
introducing it.
    Mr. Gonzalez. Mr. Takano, we support it, but also what we 
need to take into consideration is that that individual was 
called up on Title 32 orders. So being under those orders and 
being on active duty, all benefits that are applicable to you 
as an active duty member should not be waived for the simple 
fact that you were harmed in some way during your time under 
those particular orders, which are federal orders, and while 
you are in service to your nation. So we totally support the 
legislation and ensuring that the individual has all benefits 
afforded to them while under those federal orders and, of 
course, in service to their country just like any other 
individual who is in active duty and in that capacity.
    Mr. Takano. Do----
    Dr. Wescott. Mr. Takano.
    Mr. Takano. Yes. Go ahead, sir.
    Dr. Wescott. I would also say that the National Association 
of State Approving Agencies, though we did not speak to it in 
our written testimony, would be strongly supportive of this 
legislation as well. Certainly their service, and then the time 
that they spend for medical recovery, should all be considered 
toward eligibility for the GI Bill.
    Mr. Takano. Thank you for that. And, Mr. Chairman, I will 
yield back.
    Dr. Wenstrup. Thank you, Mr. Takano.
    Ms. Radewagen, you are recognized for five minutes.
    Ms. Radewagen. Thank you, Mr. Chairman and Ranking Member 
Takano for holding this hearing today to review important 
legislation that will affect our veterans. I want to thank the 
panel as well.
    I also want to thank my colleague on the other side, 
Representative Rice, for asking me to join her as an original 
cosponsor on her bill H.R. 1382, Boosting Rates of American 
Veteran Employment Act or BRAVE.
    This cost-neutral measure would allow the secretary of the 
VA to give preference to companies that have high 
concentrations of veteran employees when awarding VA contracts. 
Currently, the VA gives preference for these contracts to 
veteran-owned small businesses, but not to businesses that 
actively employ veterans. The BRAVE act would allow the VA to 
consider the percentage of veterans employed by a prospective 
contractor when awarding federal contracts. The fact that this 
isn't already a stipulation for the VA to consider when 
awarding contracts is shocking, to say the least.
    So I fully encourage my colleagues to join Representative 
Rice and my fellow cosponsors on this commonsense legislation 
that will further the committee's goal of ensuring that our 
veterans have every opportunity to be gainfully employed 
following their service to our nation.
    Thank you, Mr. Chairman.
    I have a question for Dr. Wescott. Can you please give us a 
little bit of information on what you believe should be the 
appropriate number of compliance visits completed in one year? 
And in your estimation, are these compliance visits necessary 
or are they unneeded exercises in paperwork shuffling?
    Dr. Wescott. I very much appreciate that question and the 
opportunity to respond to it.
    Certainly one of what we have suggested in this 
legislation, or in the chairman's bill, is that for those who 
enroll at least 20 veterans that they receive a compliance 
visit every other year. But at the same time we would suggest 
that those schools that have a demonstrated record of 
compliance be allowed to be granted a waiver. Because I 
certainly believe that when you have schools that have 
demonstrated year after year that they are compliant, even 
though they would fall within the category of those that we 
would say would possibly get a compliance every two years, it 
is paper shuffling just to visit those schools.
    If we could reduce the number of overall compliance visits, 
but allow state approving agencies to step up and make 
supervisory and technical assistance visits to help schools, 
then we can on the front end prevent problems that might occur 
and then become apparent during a compliance survey. We are 
strong believers in preventative medicine, if you will, in this 
area and we think our veterans deserve no less.
    Ms. Radewagen. Thank you, Mr. Chairman. I yield back.
    Dr. Wenstrup. Thank you, Ms. Radewagen. Mr. McNerney, you 
are recognized for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I am really proud to 
have introduced H.R. 1313, the Service to Disabled Veterans 
Owned Small Business Relief Act, which allows spouses to retain 
the status for three years. Mr. Morosky, do you have any idea 
how many families that might benefit over the course of a year, 
or what proportion of businesses that might help?
    Mr. Morosky. No, I do not know, Congressman, but I would be 
happy to take that for the record and get back to you on that.
    Mr. McNerney. Okay. I would appreciate that. In your 
testimony, you stated that the Service to Disabled Veteran 
Owned and Small Business Relief Act only covers Section 38 of 
the U.S. Code and that the contract is with the VA. So it only 
applies to contracts with the VA. Why do you think that the 
transfer of the SDVOSB status should apply across the entire 
federal government, not just the VA, and how would we go about 
doing that?
    Mr. Morosky. Any veteran-owned small business, any veteran 
who receives preference for contracting as a result of their 
status, could fall into the same category that you are 
describing. You know, imagine the situation. You have got a 
veteran-owned small business, and one day something terrible 
happens. The surviving spouse needs time to be able to 
restructure the business accordingly. You know, we would be 
supportive, and we would, you know, like to work with you on 
extending that protection further.
    Mr. McNerney. Thank you. Mr. Neiweem. Sorry. Do you think 
the federal government should be able to say whether a state 
like California can regulate for-profit schools? Now, Mr.--I am 
following up with a question of Mr. Takano. He asked that 
question about schools in general. What about for-profit 
schools?
    Mr. Neiweem. So we do not oppose the section that was 
described, and we certainly support the intent of what is 
happening here. You know, IAV has long raised flags among some 
for-profit colleges that have aggressively recruited student 
veterans. And we also support closing the 9010 loophole to 
remove the oftentimes target on the backs of service members.
    But we do feel in this instance--you know, we do not oppose 
it--having standards across the board and if those 
institutions, you know, do not perform to standard, that 
students will stop going to them.
    Mr. McNerney. Is there a special risk with for-profit 
schools?
    Mr. Neiweem. I think currently across the board in the 
veteran community we are still looking at statistics and trying 
to get better outcome data to be able to quantify these things. 
But, anecdotally, there is numerous stories of students that 
have gone to for-profit colleges that have had poor experiences 
and--or been able to secure work afterwards. So we are still 
looking at more data, but, you know, one thing I would say, and 
it is not the jurisdiction of this committee specifically, is 
to close the--have Congress close the 9010 loophole.
    Mr. McNerney. One other question. You mentioned you 
supported H.R. 473, the Accountability Act, but that was 
introduced in January 22nd. You support it conditionally based 
on further analysis. Do you--when do you believe that you will 
have a complete response on that?
    Mr. Neiweem. Yes, sir, thank you for the question. We 
currently have no position until we can do further study on the 
variety of the sections. We are relying on more of information 
from our membership. But I will say, we support a lot of the 
intent.
    And a reading through VA's testimony today, some of the 
content in there is kind of troubling how strongly they push 
back. I mean, they--you know, the testimony says that they 
believe that, you know, it could dissuade, you know, highly 
talented SES employees from going to VA, because they could be 
facing, you know, punitive action.
    They also talk about the SES rating scale as problematic, 
because it would prevent certain, you know, good grades, so to 
speak, with the SESes.
    Well, many of our members have been responding that they 
are frustrated, that is happening right now, that great, you 
know, ratings are being given and they are not seeing that. So, 
you know, this--we cannot forget where we were at last summer. 
And a lot of veterans are out there that are still very 
frustrated that that could happen.
    And so this is a measure that is trying to change the way 
things occurred, and so we would look forward to more 
conversations with VA to make sure we can have some 
accountability and not, you know, push back so strongly when a 
measure comes to correct that sort of behavior that we saw last 
summer that we know now existed.
    Mr. McNerney. Okay. Thank you. Mr. Chairman, I yield back.
    Dr. Wenstrup. Thank you. Ms. Rice, you are recognized now 
for five minutes.
    Ms. Rice. Thank you, Mr. Chairman. I think I am going to be 
bold and say that I speak for everyone on this panel in saying 
that I think one of the greatest national disgraces we have in 
this country right now is that we have such a high number of 
homeless and jobless veterans. There--the number one is too 
high.
    Now, Congressman Zeldin and I have some of the most 
expensive real estate in our congressional districts--New York 
State, obviously, everyone knows it is impossible. And I have 
actually heard some horror stories just in terms of the 
difficulty in, specifically, in purchasing co-ops, just because 
of the legal parameters that actually--that co-ops represent.
    And this is just to everyone on this panel, because I think 
this is a critical issue. I mean, how--I mean, I hope--I think 
everyone supports Congressman Zeldin's bill, but any other 
ways, any other stories that you have heard in terms of 
difficulties, not just in your state, but across the country, 
that might be able to inform ways that we can be better in this 
field?
    Mr. Gonzalez. Ms. Rice, I know currently--I definitely will 
take that for the record, but just to also inform the 
Committee, currently my colleague, Mark Walker, who actually 
oversees all our homeless policy legislative initiatives for 
The American Legion, is currently right now in Los Angeles. He 
was flown out there yesterday morning. We are currently 
launching at one of our Legion posts in Los Angeles, what is 
called The Veterans Benefit Center.
    Ms. Rice. Say it again.
    Mr. Gonzalez. The Veterans Benefit Center. So we have right 
now, as of currently, have already seen about 357 veterans to 
help them adjudicate their process. But also the reason we flew 
him out there yesterday was so he can put up a homeless 
veterans, pretty much, task force. And bringing in all the 
stakeholders within Los Angeles and also, of course, within the 
State of California to ensure everything from HUD service 
providers, community service providers, all the key 
stakeholders that are involved in that particular holistic 
approach, and helping the reintegration process.
    So, unfortunately, I cannot answer that, but I can 
definitely take it for the record, so when he does fly back in 
on Friday, I can present this to him and I am sure that he can 
give you a very big comprehensive, I guess, answer to your 
question, of course. Not just in Los Angeles, but he has been--
we have been flying him around across the country in addressing 
these issues. And as we do these programs, he is there putting 
together everyone in the local communities and ensuring that we 
can have the holistic approach and, of course, within the 
reintegration process.
    Ms. Rice. Well, I would love to--and as I am sure everyone 
on the Committee would love to see the results, because it 
would be great to, if they have success where they are setting 
these up, to be able to export that everywhere else.
    Mr. Gonzalez. Yes, ma'am.
    Ms. Rice. Thank you. Thank you very much. Thank you, Mr. 
Chairman.
    Dr. Wenstrup. If there are no further questions for our 
panel, you are now excused. And I want to thank you all very 
much for your testimonies today. I believe it has been very 
helpful to hear from each and every one of you, and I 
appreciate it.
    I want to now recognize our final panel of witnesses today. 
First, I want to welcome back General Robert Worley, the 
Director of the Education Service at the Department of Veterans 
Affairs, and he is accompanied by Mr. Tom Leney, Executive 
Director of the Small and Veterans Business Programs at the 
U.S. Department of Veterans Affairs; Ms. Kimberly McLeod, 
Deputy Assistant General Counsel at the U.S. Department of 
Veterans Affairs; and Mr. John Brizzi, Deputy Assistant General 
Counsel at the U.S. Department of Veterans Affairs. We also 
have with us Ms. Terry Gerton, Deputy Assistant Secretary of 
the Veterans Employment and Training Service at the Department 
of Labor.
    Thank you all for being here today. General Worley, let's 
begin with you. Welcome, and you are now recognized for five 
minutes.

  STATEMENT OF ROBERT WORLEY, ACCOMPANIED BY: MR. TOM LENEY, 
 EXECUTIVE DIRECTOR OF VA SMALL AND VETERAN BUSINESS PROGRAMS, 
   MS. KIMBERLY MCLEOD AND MR. JOHN BRIZZI OF VA'S OFFICE OF 
                        GENERAL COUNSEL

                   STATEMENT OF ROBERT WORLEY

    Mr. Worley. Thank you, Mr. Chairman. Good afternoon, 
Chairman Wenstrup, Ranking Member Takano, and other members of 
the Committee. I appreciate the opportunity to appear before 
you today to discuss legislation pertaining to the Department 
of Veterans Affairs programs. I am accompanied today by Mr. Tom 
Leney, Executive Director of VA Small and Veteran Business 
Programs and Ms. Kimberly McLeod and Mr. John Brizzi of VA's 
Office of General Counsel.
    One of the bills on the agenda today affects programs or 
laws administered by the Department of Labor. Accordingly, we 
respectfully defer to the Department of Labor regarding H.R. 
474.
    H.R. 456 would allow an individual entitled to educational 
assistance under Chapter 33 to receive payment for the 
application fee to apply to an approved program of education at 
an institution of higher learning. We recommend H.R. 456 be 
effective one year from enactment. The VA would need to make 
modifications to the Benefits Delivery Network and the Long-
Term Solution to implement this legislation.
    H.R. 473 would amend Chapter 7 of Title 38 by adding new 
sections 715, 717, and 719. VA has numerous legal concerns 
about Section 715. Several of the VA's concerns are shared by 
the U.S. Department of Justice and the U.S. Office of Personnel 
Management. VA also has policy concerns about the 
implementation of Section 715, Section 717, and 719.
    Section 2 of H.R. 475 would require VA to make changes and 
improvements to the Veterans Benefits Administration 
information technology systems and submit a report to Congress 
on the changes made no later than 180 days after enactment. The 
VA supports Section 2. However, we would require at least 24 
months from the date of enactment to report on the IT changes. 
VA IT costs are estimated to be $30 million, which matches the 
amount the committee has proposed to authorize for VA.
    VA has concerns about the provisions in Section 3. Section 
3A would allow an additional year for state legislators to 
enact laws and public educational institutions to make changes 
in policy in implementing Section 702 of The Choice Act.
    The changes in Section 3B would require additional 
corresponding changes to states' statutory or policy provisions 
governing tuition and fee charges at public IHLs. As such, VA 
recommends Section 3B be effective for any quarter, semester, 
or term as applicable that begins one year from the date of 
enactment, or July 1st, 2016, whichever is later. The 
Department is still working through the costs associated with 
this provision.
    VA also has concerns with Subsection H of H.R. 475. We 
recommend specific criteria for a benefit election be added to 
this legislation in order to eliminate subjectivity. While VA 
supports Section 5 and the intent of Section 6, we do not 
support providing the amount of an educational assistance to 
which a Veteran is entitled through an internet Web site.
    VA supports the provisions of H.R. 476 that would clarify 
approval requirements, limit the amount of tuition and fee 
payments for enrollment in flight programs, and improve the 
compliance survey process. However, VA does not believe that we 
should be interjected into the states' additional approval 
requirements for non-accredited courses.
    VA supports the intent behind H.R. 643, the Veterans 
Education Survey Act of 2015. However, the Benefits Assistance 
Service program office in VA is currently administering a 
similar survey with the help of J.D. Power & Associates.
    H.R. 1038 would amend Chapter 7 of Title 38 by adding 
Section 714 to require VA to retain a copy of any reprimand or 
admonishment received by an employee of VA in the employee's 
permanent record as long as the employee is employed by the 
Department. VA does not support H.R. 1038.
    H.R. 1141 would amend the term ``active duty'' under 
Chapter 33 of Title 38 to include certain time spent receiving 
medical care from the Department of Defense as qualifying 
active duty service performed by members of the Reserve and 
National Guard.
    VA defers to DoD regarding the change to qualifying active 
duty service under the post-9/11 GI Bill. The Department is 
still evaluating the benefit and IT costs associated with this 
legislation.
    VA does not oppose the provisions in H.R. 1187, H.R. 1313, 
and the draft legislation that would amend VA's procurement 
authorities to allow a preference for offerers that employ 
Veterans as determined by VA. VA would be pleased to work with 
a staff to provide technical assistance as requested.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today, and we would be 
happy to respond to your questions.

    [The prepared statement of Robert Worley appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, General. And, Ms. McLeod, I 
apologize for mispronouncing your name earlier. But at this 
time, Deputy Assistant Secretary Gerton, you are now recognized 
for five minutes.

                   STATEMENT OF TERESA GERTON

    Ms. Gerton. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, and distinguished Committee. Thank you for the 
opportunity to participate in today's legislative hearing. As 
the Deputy Assistant Secretary for Policy at the Veterans 
Employment and Training Service at the Department of Labor, I 
appreciate the opportunity to discuss legislation to re-
authorize the Homeless Veterans Reintegration Program, or HVRP.
    VETS administers HVRP to help homeless veterans re-enter 
the labor force. The Agency provides grants to both public and 
private entities to provide the services necessary to assist in 
reintegrating homeless veterans into meaningful employment. 
HVRP operates on the principle that when homeless veterans 
attain meaningful and sustainable employment, they are on a 
path to self-sufficiency, and their vulnerability to 
homelessness is diminished.
    Each HVRP participant receives customized services to 
address his or her specific barriers to employment. Services 
may include, but are not limited to, occupational, classroom 
and on-the-job training, as well as job search, placement 
assistance, and post-placement follow-up services.
    Grantees under this program are competitively selected for 
a one-year award. If additional funding is appropriated, VETS 
may consider awarding an additional option year for up to two 
successive years to eligible grantees. Grantees must be in 
compliance with the terms of their grant. And DoL does not 
guarantee option-year funding for any grantee.
    The program succeeds not only because of the hard work and 
local connections of our grantees, but also because of the 
collaborative efforts of our government partners at the federal 
and state levels. These efforts help ensure that homeless 
veterans receive a robust, comprehensive network of support.
    H.R. 474, The Homeless Veterans Reintegration Program's 
Reauthorization Act of 2015, would extend HVRP's authorization 
to 2020. The current authorization is set to expire at the end 
of fiscal year 2015. The Department supports the five-year 
extension to the HVRP authorization. HVRP is one of the few 
nationwide federal programs focusing exclusively on helping 
homeless veterans to reintegrate into the workforce.
    The Bill would also expand the eligibility for services 
under HVRP to include not only homeless veterans but also 
veterans participating in VA-supported housing programs for 
which certain rental assistance is provided and veterans who 
are transitioning from being incarcerated.
    Under current legislative authority, veterans who 
participate in the HUD-VASH program are ineligible for HVRP, 
because they are not technically homeless. VETS believe housing 
programs, such as HUD-VASH, are critical to the rehabilitation 
and success of homeless veterans, because the availability of 
housing and health services improves their job readiness and 
employability.
    Finally, under H.R. 474, veterans who are transitioning 
from incarceration would also be eligible for HVRP services. 
For veterans, having an arrest record is a major barrier to 
employment, and can lead to homelessness. VETS believes that it 
is critical to begin delivering employment support to 
incarcerated veterans prior to their release in order to better 
prepare them to secure civilian employment. While VETS support 
the goals of this legislation, these changes could mean a 
substantial increase in the eligible population. To accommodate 
these changes within existing funds, VETS would need to 
establish service priorities to reach those with the greatest 
needs and avoid duplication. VETS look forward to working with 
Congress to ensure that the goals of the Bill are met.
    We at the Department of Labor remain committed to the 
Administration's goals of ending veteran homelessness, and we 
look forward to working with this subcommittee to ensure the 
continued success of our efforts.
    Mr. Chairman, Ranking Member Takano, Members of the 
Subcommittee, this concludes my statement. Thank you again for 
the opportunity to testify today, and I am happy to answer any 
questions you may have.

    [The prepared statement of Teresa Gerton appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Ms. Gerton, for your 
remarks, and I will now yield myself five minutes for 
questions. I am going to go right to you General Worley. As a 
manager, do you think it would be instructive for you to be 
able to review an employee's file and see what type of 
disciplinary issues they have had over their time with the 
Department?
    Mr. Worley. Mr. Chairman, as a manager, I would--with 
respect if you are speaking specifically to admonishments and 
reprimands, which I assume you are--we look at those as tools. 
They are at the lower end of the disciplinary spectrum. We see 
those as tools to help rehabilitate an employee to take care of 
an activity or a mistake or some kind of behavior. Once that is 
completed, of course, the goal is that we have a fully 
productive employee that does not have any further problems in 
that regard.
    So from the perspective of keeping that in their record 
permanently, it becomes much more of a punishment rather than a 
rehabilitative tool. We see admonishments and the reprimands as 
being in that category.
    Dr. Wenstrup. Of course, if rehabilitation was part of the 
record as well, you would have an understanding of that and, 
you know, where they have come from and that seems to me that 
would be fair enough in many situations, at least if I was the 
manager, that would be my aspiration, is to be able to know all 
sides of the person I am working with.
    But another question too, as I understand the VA has some 
procedural issues with the pension rescission and provision of 
H.R. 473. Don't you think the average American would agree that 
if you are convicted of a felony, not just a crime related to 
your job performance, that the government should not 
necessarily be providing you a lifetime annuity for that period 
of service?
    And do you think that the current standard of requiring 
that a senior executive be convicted of treason or supporting 
terrorism is really the standard that we should be employing? 
That, to me, seems to be a pretty high bar.
    Mr. Worley. Mr. Chairman, if I could defer that question to 
Ms. McLeod to speak for the Department.
    Ms. McLeod. I do think that the standard of treason is a 
different standard, and you cannot really compare that to an 
employee who may have been convicted of a felony.
    It is difficult in a hypothetical situation to know what 
type of felony that employee would be convicted of, so that, 
you know, recouping a portion of their pension would be a 
reasonable sort of response to that conviction. I think what 
makes the legislation difficult are the practical application, 
or the practical application of the legislation to include--
there would be some responsibility placed on other agencies to 
both notify the VA.
    OPM is the one that hands out annuities to employees. They 
would have to be the ones to determine the percentage of that 
annuity that that employee received during that time when that 
conviction affected or--yeah, it affected their performance. VA 
would need to receive that notice from either federal or state 
law enforcement bodies. We would then have to review the record 
of those convictions to determine what time period their 
conviction affected their performance, in order to report that 
to OPM to take back those annuities. There are also 
constitutional issues that are at work here that we share with 
Justice and OPM in terms of applying that legislation to senior 
executives.
    So there are some, you know, both legal and practical and 
policy issues with carrying out that legislation. Of course, we 
understand the intent. We just think that enforcing that intent 
through applying it would be very, very difficult for the VA.
    Dr. Wenstrup. Well, I appreciate your response. It just 
seems to me if you are convicted of a felony relating to your 
job performance then you should not be subsequently rewarded. 
With that, I yield back my time, and I recognize the Ranking 
Member for five minutes.
    Mr. Takano. Thank you, Mr. Chairman. General Worley, I want 
to ask a question related to H.R. 476 and the provision that 
requires VA approval of additional state criteria. Do you 
believe that this provision is necessary? And what I am getting 
at is, are states now abusing the current law and are they 
applying different criteria to different types of schools?
    Mr. Worley. Thank you, Ranking Member Takano. First, I 
would like to point out VA very much respects the authority of 
the State Approving Agencies and the job they do in approvals, 
as well as suspensions and withdrawals. We have, of course, a 
very vested interest in that work. We monitor it, and we review 
it. It is in statute and the regulations that they have the 
authority to add criteria in their approval process that might 
be tailored to their state.
    By our calculation, and we are still looking at this, about 
a third of the states have additional criteria that they use. 
Most of it is administrative in nature. They might have 
additional criteria for attendance or they might have 
additional criteria to comply with additional state standards 
for higher education. None of these have posed any issues from 
VA's perspective so far.
    So while we very much support the idea in this Bill that 
standards be applied equitably, we do not see at the present 
time, the need for VA to be in the middle of that process.
    Mr. Takano. So, I mean, we--so you have not seen--I mean, 
there is not really a problem being posed to change the law to 
require that--to impose the additional requirement that the VA 
approve any additional state criteria that you believe that the 
current law with regard to state approving agencies is 
adequate, there is no problem with it?
    Mr. Worley. We have not seen any widespread problems to 
date, Congressman Takano.
    Mr. Takano. I am--I just do not understand why there is a 
reason to change the current law. I am not seeing it justified. 
I am somewhat comfortable with equitable application, but if 
states--I mean, I think it would pose an additional layer of 
federal review if states were to be subject to, you know, some 
sort of an appeal of the criteria they set.
    I want to switch gears here a little bit. I just want to 
ask Ms. Gerton, Assistant Secretary Gerton, what does the 
Homeless Veterans Reintegration Program do to help veterans 
obtain funds to cover their food and shelter costs as they 
await their first paycheck?
    Ms. Gerton. Thank you, Congressman Takano. We recognize 
that that is often a real challenge, as most employers pay in 
arrears. We do several things to work with our grantees to make 
sure that they are able to provide intermediary support to 
veterans who are participating in the HVRP program.
    The first is that we actually provide them technical 
assistance to understand all the variety of programs that they 
could take advantage of. We make sure in both their grant 
application and then in practice that they are well connected 
into the community services network in their local communities. 
And, particularly, that they are aware of other grantees who 
may be receiving the VA grants for SSVF programs, and that they 
are aware of Department of Transportation's supported 
transportation mechanisms to help veterans get to and from.
    We try to make sure that they are aware of all of the 
community resources that can be brought to bear to help 
veterans get through that transition period from when they 
successfully obtain employment through the Program to when they 
actually get their first paycheck and can pay those 
intermediary bills.
    Mr. Takano. Wonderful. Thank you. Mr. Chairman, I yield 
back my time.
    Dr. Wenstrup. Thank you, Mr. Takano. Ms. Rice, you are 
recognized for five minutes.
    Ms. Rice. Thank you, Mr. Chairman. Mr. Worley, I have a 
question for you with respect to H.R. 1382. I think that--
correct me if I am wrong--but you made the suggestion that we 
should include a provision that if someone contracting with the 
federal government voluntarily came forward and said that they 
miscalculated the number of veterans so that they did not--
there is a, however unintentional, false statement about that, 
that they should not be subject to being debarred from any 
future federal contracts. Is that--can you explain your 
position on that?
    Mr. Worley. May I defer to Mr. Leney on that----
    Ms. Rice. Oh, sure.
    Mr. Worley. Question.
    Ms. Rice. Yes.
    Mr. Worley. Thank you.
    Mr. Leney. Thank you. Congressman Rice, with respect to 
that section of the draft Bill, what we recommended there be an 
allowance for mitigating the debarment if somebody who 
recognizes they have made an error and had misrepresented and 
comes forward and admits it, because we think that will promote 
people doing so, as opposed to when they recognize they have 
made an error, if there is no mitigation for reporting it, we 
think their incentive will be to hide it.
    Ms. Rice. Well, so maybe this is my prosecutorial 
background, but what that, to me, what that is doing is giving 
license to people to make an intentional false statement up 
front and knowing that they can voluntarily at some later time 
come forward and say, ``Oops, we made a mistake, and we don't 
want to be debarred.'' Maybe I am not--maybe I am too cynical. 
Do you understand what I am saying?
    Mr. Leney. Yes. I think the issue is timing. If we discover 
it, and then they admit it, that is different than somebody who 
comes forward and self reports. Federal acquisition regulations 
currently allow for self-reporting as a mitigating factor in 
debarment. And what we would suggest is we have consistent 
rules across the, you know, acquisition spectrum.
    Ms. Rice. I appreciate that input. I think it becomes--I 
think it is less relevant when you look at how specific the 
requirements are. I do not think that there is--we are building 
in a lot of room for making mistakes or misstatements that can 
be later corrected, self-corrected, or discovered by the VA.
    I think there--one of the issues with the VA is that we do 
not have enough built-in accountability. And I think that 
Secretary McDonald is going a long way to address the issues of 
a lack of accountability, whether it is, you know, the VA being 
in the business of building hospitals and not being accountable 
for $800 million and coming and asking for another $1 billion. 
I mean, you have to have accountability. And I think that you 
are begging the question. You are encouraging people to make a 
misstatement rather than people to come forward when they 
realize a mistake has been made.
    So I could be jaded. But that is the way I see it. I 
appreciate your input, and I do look forward to working with 
you outside of this context on this Bill. Thank you.
    Mr. Leney. We look forward to that as well.
    Ms. Rice. Thank you, Mr. Chairman.
    Dr. Wenstrup. Well, thank you. If there are no further 
questions, the Panel is now excused. And if there are no 
further questions, I want to thank everyone here today for 
taking time to come and share your views on these 11 bills. It 
is very important to the legislative process, and we appreciate 
your insight and feedback very much.
    I would also like to announce that the subcommittee will be 
holding a markup on some or all of these bills on April 16th.
    Now, I ask unanimous consent that the following 
organizations be allowed to submit testimony for the record. 
U.S. Department of Defense, School Advocates for Veterans 
Education and Success, Paralyzed Veterans of America, Easter 
Seals Incorporated, and the National Association of Veterans 
Programs Administrators. Without objection, so ordered.
    Finally, I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material on any of the bills under consideration 
this afternoon. Without objection, so ordered. This hearing is 
now adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]

                                APPENDIX

                      MARK TAKANO, RANKING MEMBER

    Today we are examining 11 bills, 5 of which directly relate to 
veterans' education benefits.
    As a former educator, I enjoy my time on this Subcommittee because 
we all share an understanding of how education helps veterans 
successfully transition into civilian life. I believe that the majority 
of these bills move us toward this subcommittee's purpose: increasing 
economic opportunity for our nation's Veterans.
    The GI Bill Fairness Act, which I introduced, would close a gap 
faced by our National Guardsmen and Reservists who have been called, 
and then recalled to war throughout operations in Iraq and Afghanistan. 
I was shocked when I first heard that brave men and women with combat 
injuries who are receiving medical treatment on active-duty military 
orders are not allowed to count their recovery time towards earning 
education benefits. This is a no brainier, a cost of war, let's do 
right by these injured servicemembers and give them the benefits they 
need and deserve. I am happy to hear that the Department of Defense 
agrees: this is the right thing to do.
    I also want to recognize several of my colleagues' bills. Ms. Rice 
has introduced her first bill as a Representative, the BRAVE Act, which 
requires VA to consider the number of veteran employees a contractor 
has before giving them new work with the VA. I am confident her 
legislation will result in an increase in the number of jobs available 
to veterans and I applaud her efforts in getting right to work for 
veterans on Capitol Hill. Mr. McNerney's bill, the Service Disabled 
Veteran Owned Small Business Relief Act, allows surviving spouses to 
retain their deceased spouses preferred status of their businesses for 
three years. And Mr. Murphy's bill, the Reducing Barriers for Veterans 
Education Act, will help veterans pay for their college application 
fees. I strongly support all of these pieces of legislation.
    I generally agree with the legislation being offered for scrutiny 
today, but there is one provision in H.R. 476, the GI Bill Education 
Quality Enhancement Act, that infringes on States' rights to govern 
their educational institutions. I fear that this provision will have 
serious negative impacts on our veterans.
    Director Worley and I agree, States should retain the right to 
implement additional standards for schools that educate and train our 
veterans as they see fit, as is the case under current law. In fact, I 
believe it was through these additional standards that the California 
Department of Veterans Affairs was able to suspend and ultimately 
withdraw approval for Corinthians Colleges, Inc., a company that was 
shut down after the Department of Education found widespread abusive 
and deceptive practices.
    I am concerned that the provision in H.R. 476 would hinder our 
states' ability to protect veterans from predatory schools, 
particularly those that take veterans, money for the benefit of their 
shareholders and leave our heroes with unsustainable debt and worthless 
degrees.
    Mr. Chairman, this bill is otherwise important for veterans and tax 
payers but on behalf of California Veterans, I ask you to reconsider 
this provision.
    I yield back.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
                       The Department of Defense

    The Department of Defense (DoD) appreciates the opportunity to 
discuss potential improvements to the Post-9/11 GI Bill as proposed in 
H.R. 1141. Post service education benefits have been a cornerstone of 
our military recruiting efforts since 1985, and a major contributor to 
the continued success of the All-Volunteer Force. Money for education 
has been and remains at the forefront of reasons cited by young 
Americans for joining the military. We fully expect the Post-9/11 GI 
Bill to continue to have this impact and we are seeing that happen in 
the form of unprecedented recruiting success.
    For today's hearing, the subcommittee requested that DoD comment on 
H.R. 1141, the ``GI Bill Fairness Act of 2015.'' This Bill would 
consider active duty performed under the authority of Title 10, U.S. 
Code, section 12301(h) as qualifying active duty for the purposes of 
Post-9/11 GI Bill Education Benefits. Reserve component members wounded 
in combat are often given orders to active duty under this provision to 
receive authorized medical care; to be medically evaluated for 
disability; or to complete a required healthcare study. However, 
section 3301(1)(B), of title 38, U.S. Code, does not include active 
duty performed under 12301(h) as qualifying active duty for purposes of 
Post-9/11 GI Bill educational assistance.
    Currently, when a member of the Reserve Component on active duty 
sustains an injury due to combat operations, the Service member is not 
discharged and instead returns to service--either deployed or Selected 
Reserve; none of the time spent in recovery is qualifying time for 
purposes of the Post-9/11 GI Bill. In this case, the Service member 
would return to Selected Reserve status with less qualifying time than 
those who served an entire period of active duty without an intervening 
injury. As a result, the Service member would not receive an 
educational benefit equivalent to the other members of his or her 
cohort. In effect, the Service member is being penalized for being 
wounded or injured in theater. This legislation would correct this 
inequity by simply extending eligibility for the Post-9/11 GI Bill to 
service under 12301(h).
    DoD recognizes the inequity of not including this active duty time 
for purposes of Post-9/11 GI Bill benefits, and has included a 
provision similar to this Bill in our FY16 legislative proposal 
package. However, although the DoD proposal would include only active 
duty performed after enactment, H.R. 1141 would be retroactive, 
categorizing all duty performed under 12301(h) since September 11, 
2001, as qualifying active duty for purposes of the Post-9/11 GI Bill. 
We estimate that approximately 5,000 Reserve Component members 
performed active duty under 12301(h) each year since September 11, 
2001. Accordingly, we believe that H.R. 1141 would generate an 
additional cost to the Department of Veterans Affairs. Given that both 
the funding and administration of the Post-9/11 GI Bill fall under the 
purview of the Department of Veterans Affairs, we would defer to that 
agency to determine the costs and effects of the Bill on their 
Department. DoD does not object to this section, provided Congress 
identifies appropriate and acceptable offsets for the additional 
benefits costs. DoD has always supported equivalent benefits for 
equivalent service and this change would meet that goal.

                                 <F-dash>

                                 SAVES

    Chairman Wenstrup, Ranking Member Takano and distinguished members 
of the Economic Subcommittee, on behalf of the national association of 
School Advocates for Veterans' Education and Success, thank you for the 
opportunity to discuss the bills that may directly affect the success 
of our student veterans and the operation of Veterans' Centers on our 
school campuses.
    School Advocates for Veterans' Education and Success is a national, 
non-profit association whose members are college and university 
Veterans' Program and Service Managers. Our mission is to bring a 
consolidated voice to the issues that affect veterans' education and 
success by creating a strong network of partners to provide 
communication, advocacy, and support for educational and training 
institutions. Our perspective comes from all sectors: public, not-for 
profit and for-profit private colleges and universities.

H.R. 456 Reducing Barriers for Veterans Education Act of 2015

    H.R. 456 proposes to amend title 38, United States Code, to include 
college application fees as part of the benefits under Post 9/11 GI 
Bill Education Assistance Program. The admissions application fees for 
colleges can create a barrier for recently separated veterans who are 
balancing the transition process of supporting families, moving, and 
reintegrating into the labor force or simply waiting to be accepted to 
their school(s) of choice.
    H.R. 456 allows payment up to $750 for application fees that will 
be charged against entitlement according to Title 38, Section 3315A, 
National Tests. This section addresses the dollar amount that equates 
to a month of entitlement:

        ``(c) Charge Against Entitlement.--The number of months of 
        entitlement charged an individual under this chapter for a test 
        described in subsection (a) shall be determined at the rate of 
        one month (rounded to the nearest whole month) for each amount 
        paid that equals----

    (1) for the academic year beginning on August 1, 2011, $1,460; or
    (2) for an academic year beginning on any subsequent August 1, the 
amount for the previous academic year beginning on August 1 under this 
subsection, as increased by the percentage increase equal to the most 
recent percentage increase determined under section 3015(h).''
    SAVES supports the portion of H.R. 456 that allows payment of 
Application fees to institutions under the Post 9/11 GI Bill however, 
we recommend amending Title 38, USC, under section 3313 which includes 
the payment of all mandatory fees for student veterans and dependents 
using transferred benefits.
    Section 3313 addresses the fees as follows:

        ``(a) Payment.--The Secretary shall pay to each individual 
        entitled to educational assistance under this chapter who is 
        pursuing an approved program of education (other than a program 
        covered by subsections (e) and (f)) the amounts specified in 
        subsection (c) to meet the expenses of such individual's 
        subsistence, tuition, fees, and other educational costs for 
        pursuit of such program of education.''

    Completing a Bachelor's degree in 36 months is very difficult for 
many student veterans. Indeed, according to the National Center for 
Educational Statistics, ``the median time to earn a degree was 55 
months for 2008 bachelor's degree recipients graduating from public 
institutions, 45 months for graduates of private nonprofit 
institutions, and 103 months for graduates of private for-profit 
institutions'' (http://nces.ed.gov/fastfacts/display.asp?id=569). 
According to the Principles of Excellence, Veterans Program and 
Services Managers and their staff spend many hours assisting student 
veterans with budgeting and financial matters to plan for the costs of 
their programs. Subtracting entitlement for their application fees is a 
tough beginning to their college careers.

H.R. 643 Veterans Education Survey Act of 2015

    To direct the Secretary of Veterans Affairs to enter into a 
contract with a non-government entity to conduct a survey of 
individuals who have used or are using their entitlement to educational 
assistance under the educational assistance programs administered by 
the Secretary of Veterans Affairs, and for other purposes.
    Many Institutions of Higher Learning have dedicated departments 
that are adept at defining data points, collecting data and measuring 
outcomes. According to the Executive Order 13607, establishing the 
Principles of Excellence ``The Secretaries of Defense, Veterans 
Affairs, and Education shall develop a comprehensive strategy for 
developing service member and veteran student outcome measures that are 
comparable, to the maximum extent practicable, across Federal military 
and veterans educational benefit programs, including, but not limited 
to, the Post-9/11 GI Bill and the Tuition Assistance Program'' [Sec. 3. 
(c)]. To fairly compare institutions, we must be asking the same 
questions to ensure standardized data points, which must be clearly 
articulated to our institutions and their Institutional Research 
departments. A few institutions can't be using the metric system while 
the rest are using yardsticks, and a yardstick is not a very efficient 
way to measure a mile. As institutions, we're good at measuring 
outcomes so, to the extent practicable, the student outcome measures 
should rely on existing administrative data. This will minimize the 
reporting burden on institutions participating in these benefit 
programs. Student outcome measures should permit comparisons across 
federal educational programs and across institutions and types of 
institutions. To do so, it is time to establish a common set of 
standards and a common measuring device that allows point in time 
comparisons and trends.
    Given the importance of data to inform and support evidence based 
decisions, SAVES supports H.R. 643 directing the Secretary of Veterans 
Affairs to enter into a contract with a non-government entity to 
conduct a survey of individuals who have used or are using their 
entitlement to educational assistance and conduct a survey of 
Institutions of Higher Learning whose programs are approved by the 
Department of Veterans Affairs for educational assistance.

H.R. 476 GI Bill Education Quality Enhancement Act of 2015

    The State Approving Agencies (SAAs) play a critical role in the 
approval process for veterans' education and training. SAVES believes 
that the role of the SAAs should be brought into the 21st century by 
providing a clear structure that emphasizes training and consistent 
guidelines. State Approving Agencies are in a position to provide 
optimal support for institutions of higher learning by providing 
timely, consistent and clear summaries of VA policies, guidelines, and 
best practices. SAAs should provide approval oversight in cases where 
no other federal agency already has oversight. SAAs should also provide 
on-the-ground training and assistance for schools, respond to inquiries 
and questions, and clarify VA guidance to ensure accurate and 
appropriate application by schools. Training must be a priority. The 
support SAAs provide Non-College Degree (NCD) programs and 
apprenticeship programs would be invaluable.
    The formal definition of ``deemed approved'' as stated in PL 111-
377 remains unclear. We would recommend clear procedural guidance for 
those programs that still require specific approval. We support the 
continued approvals of NCD programs, apprenticeships, and new 
institution or campuses. For those Institutions of Higher Learning that 
have already been evaluated and approved by accrediting agencies and/or 
federal and state agencies, no additional action on the part of the SAA 
should be required. This will save time and money to build a stronger 
training process for programs and educational facilities. NCD programs 
at Institutions of Higher Learning and certificate programs that are 
not vocational in nature should follow degree program approvals for 
those institutions. In all cases we support the Secretary's authority 
to approve/disapprove programs, and in no case should the Secretary's 
authority be omitted from the approval process or to the administration 
of federal veteran's education programs.
    We support the expansion in scope of SAAs to provide training and 
to collaborate with the Department of Veterans Affairs to provide 
thorough guidance for all educational institutions/facilities. We 
recommend a best practice that focuses on consistent policies and 
implementation among and between states as should be the processing 
among and between RPOs.
    We believe that combining compliance with training constitutes a 
conflict of interest. The process of Compliance Surveys can be daunting 
and confusing. Effective and consistent training and a clear process 
will help institutions maintain compliance with the rules governing the 
administration of these programs. The VA needs more staff to adequately 
conduct compliance surveys; however, it should continue to be the VA's 
responsibility. It would be beneficial for all partners to have written 
official guidance on all changes included in PL 111-377. The lack of 
regulatory guidance means schools have no official source document for 
the administration of education and training programs. At a minimum, 
schools must know the rules governing the administration of these 
programs. What's more, the rules must be consistent nationwide. We 
offer that high-volume schools with a solid track record of successful 
compliance visits do not require surveys annually. Instead, we suggest 
that the VA use risk-based scheduling for determining the need for 
annual compliance surveys. We also recommend that the VA track their 
findings and compile the overall findings, including the type of 
discrepancies and payment errors. Additionally, as a basis for risk-
based scheduling, summarize the information to be used to identify 
common errors among schools and evaluate trends over time as 
recommended by the United States Government Accountability Office 
report published in February 2011, titled VA Education Benefits: 
Actions Taken, but Outreach and Oversight Could Be Improved.
    SAVES supports the expansion of duties for SAAs but strongly 
recommends their role be redefined to focus on training and approval of 
new IHL programs, Non-College Degree programs, apprenticeships, and 
vocational training and licensure/certification examinations.

Flight Training

    Current legislation authorizes unlimited payment of tuition and 
fees for eligible beneficiaries attending a public school. However, the 
high cost of some programs, such as flight training, has become 
unmanageable. The National Association of State Approving Agencies' 
(NASAA) recommendation concerning flight training is reasonable as it 
relates to capping the amount the VA will pay for flight course tuition 
and fees each year. H.R. 476 will help level the playing field for 
private IHLs with flight that have been offering approved flight degree 
programs for decades.
    In the interest of reducing the high cost of the Post 9/11 
Education program, SAVES supports the portion of H.R. 476 regarding 
capping the annual amount payable for flight training. SAVES agrees 
that payment for flight training at institutions of higher learning be 
limited to only those eligible individuals enrolled in degree programs 
that require flight training for degree completion. Payment for flight 
courses should not be permitted in the case of flight training that is 
not specifically required as part of a standard college degree, 
including undeclared, undecided, general studies, liberal studies, and 
other similarly termed programs or statuses as it pertains to IHL 
public or private.
                                 <F-dash>

                     PARALYZED VETERANS OF AMERICA

    Chairman Wenstrup, Ranking Member Takano, and members of the 
Subcommittee, the Paralyzed Veterans of America (PVA) thanks you for 
the opportunity to submit a statement for the record regarding the 
proposed legislation. The bills introduced are intended to make 
adjustments and corrections in existing programs and extend the 
expiration date on several other important programs. We support your 
effort to help the men and women that have honorably served their 
nation and are in the process of successfully transitioning back to the 
civilian world.

H.R. 456, the ``Reducing Barriers for Veterans Education Act of 2015''

    PVA supports H.R. 456, the ``Reducing Barriers for Veterans 
Education Act of 2015.'' This legislation will provide funds for 
veterans using the GI Bill who are required to pay an additional charge 
for application fees. Often the additional fees are not budgeted in a 
veteran's college expenses. Some programs require additional fees that 
can amount to several hundred dollars, placing an unforeseen burden on 
the veteran before starting their college courses. This legislation 
will eliminate the financial barrier that some veterans face when 
pursuing educational programs that require additional application fees.

H.R. 473, the ``Increasing the Department of Veterans Affairs 
Accountability to Veterans Act of 2015''

    PVA generally supports H.R. 473, the ``Increasing the Department of 
Veterans Affairs Accountability to Veterans Act of 2015,'' which would 
give the Secretary more leverage as he continues his campaign to 
improve the VA healthcare system. This legislation will allow the 
Secretary to reduce benefits of Senior Executive Employees that have 
been convicted of certain crimes. Section 3, the Reform of Performance 
Appraisal System for Senior Executive Service Employees is troublesome 
for our organization. This limits the recognition of employees that 
have contributed more than a position requires while maintaining a 
personal goal of improving service to veterans. The forced distribution 
of bonuses paid to senior employees, although intended to sharply limit 
the number of bonuses paid, can discourage those that are 
overachievers.

H.R. 474, the ``Homeless Veterans' Reintegration Programs 
Reauthorization Act of 2015''

    PVA supports H.R. 474, the ``Homeless Veterans' Reintegration 
Programs Reauthorization Act of 2015,'' which would extend through 
FY2020 the VA's homeless veterans' reintegration programs. Many of the 
programs that have been successful components of the effort to 
eliminate homelessness among veterans will expire in FY 2015. These 
programs have provided job training, counseling, and placement services 
to homeless veterans to expedite their reintegration into the labor 
force. Veterans that participate in these programs include: (1) 
homeless veterans, (2) veterans who are participating in the VA 
supported housing program which provides rental assistance through the 
Department of Housing and Urban Development, and (3) veterans who are 
transitioning from being incarcerated.

H.R. 475, the ``GI Bill Processing Improvement Act of 2015''

    PVA supports H.R. 475, the ``GI Bill Processing Improvement Act of 
2015'' which will make changes and improvements to the information 
technology system of the VA. Section 2 places an emphasis on the 
information technology solution for processing original and 
supplemental claims and requires electronic processing of the claims 
which will insure accuracy and eliminate delays in future claims.

H.R. 476, the ``GI Bill Education Quality Enhancement Act of 2015''

    PVA supports H.R. 476, the ``GI Bill Education Quality Enhancement 
Act of 2015.'' This legislation will clarify the process of approving 
courses of education that are recognized for use by veterans using VA 
benefits. The legislation will allow state agencies to approve certain 
programs that meet criteria determined by VA to be a program which 
shall be approved for VA educational benefits. The state approving 
agency may qualify certain flight training programs as eligible for the 
Post 9/11 GI Bill since they are required in a flight training 
curriculum. The state approving agency may also approve flight training 
programs in an institution of higher learning in which flight training 
is required to earn the degree being pursued.

H.R. 643, the ``Veterans Education Survey Act of 2015''

    PVA supports H.R. 643, the ``Veterans Education Survey Act of 
2015.'' This legislation directs the VA to enter into a contract with a 
non-government entity to conduct a survey of individuals who have used 
or are using their entitlement to educational assistance under the 
educational assistance programs administered by the VA.

H.R. 1038, the ``Ensuring VA Employee Accountability Act''

    PVA supports H.R. 1038, the ``Ensuring VA Employee Accountability 
Act.'' This legislation requires VA to retain all records which 
document any reprimands or admonishment received by VA employees. These 
records must be retained as long as the employee is employed by VA. 
Retaining records of employee reprimands is critical to evaluating an 
employee's personal performance and determining if that performance is 
part of a larger problem within a program of VA. This documentation is 
necessary for the Secretary to evaluate problems and make changes 
needed to correct ongoing problems in the VA.

H.R. 1141, the ``GI Bill Fairness Act of 2015''

    PVA supports H.R. 1141, the ``GI Bill Fairness Act of 2015'' which 
would include time spent receiving medical care from the Department of 
Defense as active duty time for the purpose of eligibility for Post 9/
11 GI Bill. We have no doubt that this time should be considered active 
duty time toward qualifying for the Post 9/11 GI Bill. This legislation 
would be retroactive to the date of the enactment of the Post 9/11 GI 
Bill.

H.R. 1187, Legislation to Modify the Loan Limit of the VA Loan

    PVA supports H.R. 1187. This legislation makes adjustments in the 
maximum amount of the loan guaranteed under section 3710 of title 38, 
the VA Home Loan. Home prices vary from each region of the country, 
from each metropolitan community within a region, and from each 
neighborhood within a community. A fixed maximum limit on the VA loan 
amount that a veteran can borrow limits where the veteran can live. 
This legislation will give veterans who reside in high-cost areas where 
average home prices exceed the VA Home Loan maximum greater flexibility 
in the type and location of homes they can purchase using the VA Home 
Loan.

H.R. 1313, the ``Service Disabled Veteran Owned Small Business Relief 
Act''

    PVA supports H.R. 1313, the ``Service Disabled Veteran Owned Small 
Business Act.'' This legislation will make changes in the law that 
certifies Service Disabled Veteran Owned Small Businesses (SDVOSB) to 
help with the transition of that business when the veteran passes away. 
Currently if the veteran business owner is rated less that 100% when 
passing away from a non-service connected illness or injury, the 
surviving spouse only has one year to transition the business out of 
SDVOSB status with VA. If the SDVOSB has contracts with any other 
federal agency, the business immediately loses its SDVOSB status upon 
the passing of the veteran and all business must stop. This legislation 
will allow the business to retain the SDVOSB status for three years 
upon the passing of the veteran to allow for a transition of the 
business. This three year period would apply to SDVOSB contracts with 
the VA and all federal agencies.

H.R. 1382, Legislation Addressing VA Procurement Contracts

    PVA supports proposed legislation to authorize the VA to award 
contracts for procurement of goods or services to businesses that 
employ veterans. Unfortunately, employing veterans is not a high 
priority for businesses. This is understandable since the goals of a 
business are to pay bills, pay employees, buy necessary capitol 
equipment and supplies, and attempt to make profit. However, some 
businesses do make an effort to employ veterans and based on their 
experience hiring veterans, continue to employ veterans. Those 
businesses should be recognized, if not by all federal government 
procurement, at least by VA. Legislation to authorize VA to award 
contracts will not change the current pattern of awarding contracts to 
favored businesses. Among businesses that submit proposals and meet the 
requirements of the contact, the contract must be awarded to the 
business that demonstrates an effort and successfully employs veterans. 
Without Congressional oversight this requirement, if passed into law, 
risks becoming simply another policy that is overlooked by the VA in 
the procurement of goods and services.
    Chairman Wenstrup, Ranking Member Takano and Members of this 
Subcommittee, PVA appreciates the opportunity to comment the bills 
being considered. We thank you for continuing the work in this 
Subcommittee to ensure that veterans have the best available programs, 
options, and opportunities as they transition to the civilian world.
    Information Required by Rule XI 2(g)(4) of the House of 
Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.

Fiscal Year 2014

    No federal grants or contracts received.

Fiscal Year 2013

    National Council on Disability--Contract for Services--$35,000.

Disclosure of Foreign Payments

    ``Paralyzed Veterans of America is largely supported by donations 
from the general public. However, in some very rare cases we receive 
direct donations from foreign nationals. In addition, we receive 
funding from corporations and foundations which in some cases are U.S. 
subsidiaries of non-U.S. companies.''

                                 <F-dash>

 Written Statement Katy Beh Neas, Executive Vice President For Public 
                       Affairs Easter Seals, Inc.

    On Bill (H.R. 474) Homeless Veterans' Reintegration Program 
Reauthorization Act
    Dear Chairman Wenstrup, Ranking Member Takano and Members of the 
Subcommittee:
    Thank you for holding this hearing on proposed legislation to help 
increase access to critical employment and education benefits and 
services for America's veterans. Easter Seals is a leading non-profit 
organization that assists veterans, military families, and others to 
reach their potential and succeed in their communities by providing and 
connecting them to local services and supports. Easter Seals lends our 
support to Chairman Wenstrup's Homeless Veterans' Reintegration 
Programs Reauthorization Act of 2015 (H.R. 474) and we ask that the 
Subcommittee consider minor changes to help improve delivery of 
services to veterans who are homeless or at-risk of homelessness.
    The U.S. Department of Labor's Homeless Veterans' Reintegration 
Program (HVRP) helps to ensure veterans who are experiencing 
challenges, including unemployment and homelessness, can access the 
specialized job training and local supports they need to bounce back 
and find meaningful employment. HVRP is the only federal nationwide 
program focused exclusively on the employment of veterans who are 
homeless. Through the program, community-based organizations, including 
non-profits and faith-based groups, provide job training, counseling, 
and placement services to help homeless veterans reintegrate into 
society and the labor force. Easter Seals affiliates operating in six 
states operate eight HVRP grants, including two focused on assisting 
homeless female veterans. HVRP exemplifies the community-based, public-
private partnership required to help veterans overcome obstacles and 
successfully reintegrate into civilian life.
    Easter Seals has seen first-hand the transformational impact HVRP 
and its federally-funded services have on Americans who have honorably 
served our nation.
    Shaneece, a young woman from New York who served in the U.S. 
military, got her life back on track as a result of the support 
services and employment assistance she received through HVRP. Shaneece 
joined the U.S. Army in 2011 ``eager to serve'' and worked as a 
generator mechanic. Her plan to temporarily move back in with her 
parents after she completed her military service unraveled due to 
complications at home. With no options, Shaneece used her car as a 
home--using the back seat as her bed and the trunk as both a dresser 
and filing cabinet to store clothes, blankets and her military papers, 
including her DD 214 separation documents. Despite the sub-zero 
weather, she slept in her car at night and filled her days looking, 
unsuccessfully, for jobs. After many nights on the street, she visited 
Easter Seals in New York City. She had run out of options and heard 
Easter Seals could help. ``I felt so hopeless,'' Shaneece remembered, 
``you feel like you have no more support. I was working hard but still 
coming up short.''
    Easter Seals specializes in person-centered services to help 
individuals thrive in their communities. Our New York affiliate 
operates HVRP grants in Syracuse and throughout New York City, 
including one focused on helping homeless female veterans connect to 
employment and other services. Through HVRP, Easter Seals New York 
implements a team approach to provide each veteran with the wrap-around 
services they need to return to employment. Shaneece came to Easter 
Seals with multiple barriers. She was street homeless, had low self-
confidence, and had no prospects for employment. As part of the team 
approach, an Easter Seals case manager immediately went to work to get 
her situated for the night in a temporary shelter. At the same time, an 
Easter Seals social worker helped her apply for and receive the U.S. 
Department of Veterans Affairs (VA) benefits she earned during her 
military service and an Easter Seals employment specialist worked with 
Shaneece to update her resume, including translating her military 
experiences into civilian language. Shaneece received a call-back for 
an interview for a job that she eventually won. She works full-time as 
a program support assistant for a VA center in Brooklyn helping other 
veterans during their reintegration. ``I feel like I'm a different 
person. I'm a more improved individual,'' Shaneece said. ``I see myself 
going places. I'm grateful for the help Easter Seals has given me.''
    Shaneece is one of about 17,000 homeless veterans in nearly 150 
communities across the country who benefit each year from HVRP 
services. In addition to Easter Seals New York, Easter Seals operates 
HVRP grants in Oregon (Jackson, Josephine, Marion & Polk Counties and 
the cities of Medford, Grants Pass, and Salem), Indiana (eight county 
area in central Indiana) and in Washington, DC and the surrounding 
Maryland (Baltimore, Prince George's and Montgomery Counties) and 
Virginia region (Arlington, Fairfax, Loudoun, and Prince William 
Counties). HVRP is successful due to the holistic, individualized care 
coordination model that recognizes veterans face multiple barriers to 
securing a job and maintaining stable housing. HVRP's intensive, hands-
on, veteran-centered approach is critical and not found in traditional 
job training and employment programs. The Department of Labor noted in 
a congressional budget justification that ``helping homeless veterans 
requires a substantial amount of outreach and job development with 
employers as well as the coordination of individually tailored support 
services and training interventions.'' Nationwide, HVRP has been an 
important tool in helping to decrease veterans' homelessness by 33 
percent or 24,837 veterans since 2010 (HUD/VA report). H.R. 474 would 
provide certainty that this proven veterans program will continue by 
reauthorizing HVRP through FY 2020. In addition, H.R. 474 expands the 
definition of who is eligible for the program to include veterans who 
are transitioning from being incarcerated and veterans participating in 
the VA supported housing program.
    Easter Seals supports the changes proposed in H.R. 474 and 
recommends other minor updates to help improve implementation.
    Expand Eligibility of HVRP Services:
    In addition to the eligibility expansions contained in H.R. 474, 
Easter Seals recommends that HVRP eligibility be expanded to include 
all National Guard and Reserve members who have honorably served, 
regardless of their activation status. The current HVRP definition of 
veteran only allows Guard or Reserve veterans who were activated or who 
have a service-connected disability to access HVRP services. In 2014 
testimony, Easter Seals shared a story of a homeless woman who 
approached our local affiliate after honorably serving in the U.S. Army 
National Guard. Because her Guard unit was never activated or deployed 
during her six year military career, she could not access HVRP 
services. Easter Seals was able to assist her through a separate 
program we offer but she could have benefited greatly from the 
supportive services available through HVRP.
    Easter Seals Recommendation: As H.R. 474 advances, we encourage you 
to amend Sec. 3 (Clarification of Eligibility for Services) to include 
at the end of the section the following:
    ``(4) all veterans who have been honorably discharged from the 
National Guard and Reserves.''
    Include Greater Flexibility to Address Individualized Needs of 
Veterans:
    While HVRP has been successful in reducing veteran homelessness, 
greater flexibility should be given to service providers, on a case-by-
case basis, to more effectively address the unique needs of homeless 
veterans or veterans who are at-risk for homelessness. Easter Seals 
appreciates the need for uniform program guidelines to better manage 
and oversee a grant program. But the reality is that veterans who seek 
help in finding stable housing or a job come to these programs with 
very unique needs that don't always fit nicely within the parameters of 
the program. Shaneece, the young woman living in her car in New York, 
could have benefited from greater HVRP flexibility. HVRP can be used to 
pay for temporary transportation expenses to help participants get to 
job interviews and work. Shaneece was living in transitional housing on 
Staten Island when she secured her job in Brooklyn. The quickest route 
to get Shaneece to her job is by car. The program would not allow 
Easter Seals to fill her E-Z Pass card to temporarily cover toll fares 
along her route but would allow the purchase of transit cards to cover 
ferry and subway fares, which would have greatly increased the length 
of her work commute. In most cases, public transportation is the best 
and preferred option. However, this was a unique situation where 
driving to work was the better option. One delay in her car-boat-train-
bus commute could have impacted her ability to get to work on-time and 
remain employed.
    Easter Seals Recommendation: As H.R. 474 advances, we encourage you 
to add the following report language:

        ``The Committee recognizes the individualized barriers and 
        unique challenges faced by veterans who are homeless or at-risk 
        of homelessness. As such, the Committee provides the Secretary 
        of Labor the authority to waive a rule, on a case-by-case 
        basis, if a waiver greatly improves the veteran's ability to 
        find stable housing and to become gainfully employed.''

Create Service Delivery Efficiencies Through Multi-Community and 
Regional Awards:

    The Department of Labor awards single community grants to non-
profits and faith-based organizations. Four Easter Seals affiliates 
operate eight separate HVRP grants in individual service territories. 
Despite the fact our affiliates represent the same Easter Seals family, 
the current HVRP structure does not foster systematic collaboration or 
coordination among these otherwise connected entities. The 
organizations that operate on the same program cycle could find 
themselves in competition with each other in future grant completions. 
Easter Seals believes multi-community or regional grants would promote 
service delivery efficiencies and best practice sharing. Demonstrating 
the use of regional grants to national non-profits is consistent with 
authority Congress recently gave to the Secretary of Labor in the 
Workforce Innovation and Opportunity Act (Public Law 113-128). Section 
169(b) of that law grants the authority to conduct regional projects to 
develop and disseminate best practices and models for implementing 
employment and training services and address the employment and 
training needs of specialized populations. A similar model is in place 
through the Department of Labor's Senior Community Service Employment 
Program. The multi-community or regional grant model encourages and 
fosters regular coordination while also maintaining local autonomy to 
meet unique community challenges.

    Easter Seals Recommendation: As H.R. 474 advances, we encourage you 
to add the following report language:

        ``The Committee recognizes the role of HVRP in decreasing 
        veterans' homelessness by helping homeless veterans or veterans 
        who are at risk of homelessness through job training, 
        counseling, and placement services. The Committee directs the 
        Secretary of Labor to conduct a pilot to demonstrate the use of 
        regional, multi-community awards to national organizations to 
        test service delivery efficiencies and to improve outcomes.''

    Thank you for the opportunity to comment on H.R. 474, a bill to 
improve and extend DoL's Homeless Veterans' Reintegration Program. 
Easter Seals is proud of its partnership with the Department of Labor 
to create veteran success stories, like Shaneece, through job training, 
counseling, and placement services. We urge this Subcommittee to 
quickly advance H.R. 474 with Easter Seals' recommendations. Thank you 
for your consideration. We look forward to working with the 
Subcommittee on H.R. 474 and other legislation to increase access to 
community-based services and supports for our nation's veterans.

                                 <F-dash>

 THE NATIONAL ASSOCIATION OF VETERANS PROGRAM ADMINISTRATORS (NAVPA), 
             SUBMITTED BY KEITH GLINDEMANN, VICE PRESIDENT

    ``Legislative Hearing on H.R. 456; H.R. 473; H.R. 474; H.R. 475; 
H.R. 476; H.R. 643; H.R. 1038; H.R. 1141; H.R.1187; draft bill, ``To 
amend title 38, United States Code, to authorize the Secretary of VA, 
in awarding a contract for the procurement of goods or services, to 
give a preference to offerors that employ veterans;'' and a draft bill, 
``Service Disabled Veteran Owned Small Business Relief Act'' ``A Review 
of Higher Education Opportunities for the Newest Generation on 
Veterans'' March 24, 2015.

Introduction

    Chairman Wenstrup, Ranking Member Takano, and members of the 
Subcommittee on Economic Opportunity, the National Association of 
Veterans Program Administrators (NAVPA) is pleased to be invited to 
provide written comments for this hearing. NAVPA is a nationally 
recognized nonprofit organization founded in 1975 by school certifying 
officials. Our organization represents close to 400 educational 
institutions nationwide. We voluntarily serve NAVPA in an effort to 
better serve the veterans on our campuses.
    NAVPA recognizes the significant higher education opportunities 
that are afforded this generation of veterans. We are committed, in 
partnership with the Department of Veterans' Affairs, to ensure the 
success of the programs funded to provide educational opportunities for 
our veterans and their family members.

H.R. 475: SEC. 6. Ability for Schools to See Remaining Entitlement

    NAVPA endorses SEC. 6. Provision of Information Regarding Veteran 
Entitlement to Educational Assistance. This provision would give School 
Certifying Officials the ability to see what remaining entitlement a 
veteran student had remaining. With today's veterans often changing 
between schools or needing to enroll in programs close to enrollment 
deadlines the ability to see what GI Bill entitlements a student had 
remaining would be beneficial to the student and the College/University 
that they are wanting to attend. Students need to know prior to 
enrolling how much entitlement they have remaining so that they can 
make strong financial decisions. If a student does not have enough 
entitlement they can look at other possible funding sources so that 
they will not run out of funds prior to the end of term. This can help 
them to make educated decisions rather than reactionary ones. 
Additionally it can help schools to make determinations in the applying 
of Yellow Ribbon funds, and the counseling of students on their 
financial options.

H.R. 476: SEC. 5. Compliance Surveys

    Current statutory requirements require that any institution with at 
least 300 GI Bill recipients have a compliance survey conducted 
annually. This requirement is mandated regardless of the results of the 
prior year's survey. This requirement results in overburdened 
inspectors revisiting schools that have proven to be good stewards, and 
in full compliance. NAVPA fully supports H.R. 476 SEC 5. Here it asks 
for the VA to waive compliance surveys for institutions and 
establishments that have a record of compliance. This will allow the VA 
and the State Approving Agencies to concentrate on the institutions 
most at risk as well as providing more timely compliance surveys for 
smaller schools. This will help strengthen the survey program as a 
whole. Additionally this could also allow SAAs to be freed up to 
provide additional technical assistance and training. We feel that 
potential compliance issues could be avoided by having better trained 
SCO's on the front end of the process.

H.R. 1141: SEC. 2. GI Bill Fairness

    When our Service Members go to war their dedication to duty, and 
the risk of life and limb know no separation between Active Duty and 
Reservists. The missions are performed the same, and dangers are 
equally faced. Therefore it is only fair that our Reservists who are 
harmed in the performance of their duties are able to have the time 
that they are receiving medical care for their injuries count towards 
their qualifying time for the Post 9/11 GI Bill. What greater support 
can we show these Service Members who have sacrificed so much that we 
truly support them? They are not asking to be given anything other than 
what they have earned. NAVPA urges that Congress look at this carefully 
and do what is not only correct, but our duty.

Closing

    In closing, on behalf of the membership institutions of NAVPA, we 
thank you for the opportunity to provide comments on these very 
important issues with the committee today. We look forward to working 
with you on veteran education issues in the future.

                                 <all>
</pre></body></html>
